                                               Fi
                                               rs
                                                tE
                                                    di
                                                     tio
                                                         n
        Treasury
    Inspector General
         for Tax
      Administration


          “Taxes are wha t we pay for a
           civilized society”
                     – Oliver Wendell Holmes




Semiannual Report to the Congress

    October 1, 1998 – March 31, 1999
…the 105th Congress created a statutory Inspector General,
specifically for oversight of the Internal Revenue Service

    “The Treasury Inspector General for Tax Administration
    shall exercise all duties and responsibilities of an Inspector
    General of an establishment with respect to the Department
    of the Treasury and the Secretary of the Treasury on all
    matters relating to the Internal Revenue Service. The
    Treasury Inspector General for Tax Administration shall
    have sole authority under this Act to conduct an audit or
    investigation of the Internal Revenue Service Oversight
    Board and the Chief Counsel for the Internal Revenue
    Service.”

…Section 1103 of Public Law 105-206, The Inter nal
Revenue Ser vice Restr ucturing and Reform Act of 1998,
enacted July 22, 1998…
                                         April 30, 1999


MEMORANDUM FOR SECRETARY RUBIN


FROM:                    Lawrence W. Rogers
                         Acting Treasury Inspector General for Tax Administration

SUBJECT:                 Treasury Inspector General for Tax Administration Semiannual
                         Report to the Congress


It was an honor to serve as the Treasury Department's Transition team leader, and recently as
Acting Treasury Inspector General, to establish the new Office of the Inspector General for Tax
Administration (TIGTA). I want to acknowledge the highly dedicated and professional people of
the former Internal Revenue Service (IRS) Office of Chief Inspector. Since the Inspection
Service was created in 1952, they have served with honor and distinction in their contributions to
the IRS, the Department and the taxpayers. They also demonstrated that same commitment and
dedication to duty during the recent transition to the newest statutory Office of Inspector
General.

I also would like to thank Nancy Killefer, Assistant Secretary for Management and Chief
Financial Officer, and Charles O. Rossotti, Commissioner of the IRS, for their assistance and
stewardship in completing the transition to begin business as the Office of Treasury Inspector
General for Tax Administration on January 18, 1999.

The executives, managers and staff of the TIGTA faced great challenges in making vast changes
in independence, organization, procedures, and restructuring in a short time. A significant
amount of senior management and staff were diverted from their usual work conducting audits
and investigations to implementing the legislative requirements of the IRS Restructuring and
Reform Act of 1998. The result was the newest and third largest Inspector General in the Federal
Government.

I am pleased and proud to provide our first Semiannual Report for you to transmit to the
Congress. This report includes the accomplishments of the TIGTA since January 18, and the IRS
Inspection Service from October 1, 1998, through January 17, 1999.

I can report that the entire staff of the TIGTA looks forward to working with you and the
Departmental Officials to insure the highest degree of independence while working closely with
the IRS as we watch over the nation’s tax administration system.

Attachment
                              Semiannual Report to the Congress



                  Office of The Treasury Inspector General
                            for Tax Administration


                                    Table of Contents
General Information                                               Page 1
Office of Audit                                                   Page 9
Office of Investigations                                          Page 23
National Integrity Program                                        Page 31
Statistical Reports - Audit                                       Appendix I
 •   Questioned Costs
 •   Funds Put to Better Use
 •   Additional Quantifiable Impacts on Tax Administration

Statistical Reports - Investigations                              Appendix II
 •   Investigations
     q Opened/Closed
     q Financial Accomplishments
     q Status of Closed Criminal Investigations
     q Criminal Dispositions
 •   Complaints/Allegations Received –
     q TIGTA
     q IRS
     q Administrative Status and Dispositions


Statistical Reports - Other                                       Appendix III
 •   Unimplemented Corrective Actions
 •   Access to Information
 •   Prior Reporting Period – No Management Response
 •   Revised Management Decisions
 •   Disputed Audit Recommendations
 •   Review of Legislation and Regulations

Audit Report Listing – October 1, 1998 through March 31, 1999     Appendix IV
RRA98 Section 1203 Standards                                      Appendix V
RRA98/IRC/Other Mandated TIGTA Reporting Requirements             Appendix VI
Organizational Chart                                              Appendix VII
Acronyms                                                          Appendix VIII
Report Cross-Reference - IG Act/RRA98/Other Reporting             Appendix IX
Requirements




                                        March 31, 1999
                              Semiannual Report to the Congress




                    Office of The Treasury Inspector General
                              for Tax Administration


Recent Legislation Created                             Information About The Treasury
the Newest Statutory Inspector                         Inspector General for Tax
General                                                Administration

In July 1998, the Congress passed the Internal         The TIGTA is organizationally placed within
Revenue Service Restructuring and Reform               the Department of the Treasury, but is
Act of 1998 (RRA98), and created the newest            independent of the Department and all other
statutory Office of                                                              offices      and
Inspector General, the                                                           agencies within
Treasury        Inspector                                                        the Department.
General for Tax Admin-
                                                                                    Under       super-
istration (TIGTA).
                                                                                    vision of the
This latest amendment                                                               TIGTA are a
to the Inspector General                                                            Deputy,      three
(IG) Act of 1978 added                                                              Assistant Inspect-
the TIGTA to execute                                                                ors        General
all duties and respon-               Senate Finance Committee Conducted             (Audit, Investi-
sibilities of an Inspector                 Hearings of IRS Activities               gations,       and
General with respect to                                                                  Management
the Department and the Secretary of the                 Services), an Office of Counsel and an
Treasury on all matters relating to the Internal        immediate staff.
Revenue Service (IRS), including those of the
                                                        The TIGTA provides leadership and
IRS Oversight Board and the IRS Office of
                                                        coordination and recommends policy for
Chief Counsel.
                                                        activities designed to:
This change in the IG Act, effective
January 18, 1999, transferred to TIGTA, all                 • promote economy, efficiency,
the powers and responsibilities of the former                    and effectiveness in the
IRS Office of Chief Inspector, except for                        administration of the internal
conducting background checks of and                              revenue laws; and,
providing physical security to IRS employees.               • prevent and detect fraud and
Treasury Order 115-01, dated January 14,                         abuse in the programs and
1999, delineates the specifics of the                            operations of the IRS and
authorities granted to the TIGTA by law and                      related entities.
those delegated by the Secretary of the                The TIGTA is responsible for:
Treasury. Treasury Directive 27-14, dated
January 15, 1999, describes the organization               •   conducting and supervising
and functions of the TIGTA. A TIGTA                            independent and objective
organizational chart is appended to this report.               audits and investigations
                                                               relating to IRS programs and
                                                               operations;


                     Treasury Inspector General for Tax Administration
                                      March 31, 1999
                              Semiannual Report to the Congress


    •    protecting the IRS against                    The TIGTA provides a program of
         external attempts to corrupt                  comprehensive Audit and Investigative
         or threaten its employees;                    services of IRS operations and activities. This
                                                       includes a national integrity program
    •    reviewing      and    making                  emphasizing deterrence and detection
         recommendations regarding                     approaches to assist IRS in ensuring the
         existing     and    proposed                  highest degree of integrity and ethics in its
         legislation and regulations                   workforce.
         relating to the programs and
         operations of the IRS;                        Resources from the TIGTA Offices of Audit,
                                                       Investigations and Information Technology
    •    recommending actions to                       are jointly utilized to:
         resolve fraud and other
         serious problems, abuses                      •   inform IRS executives and
         and deficiencies in the                           managers of the importance of
         programs and operations of                        established internal controls both
         the IRS; and,                                     to protect Government assets and
                                                           revenue from fraud and to protect
    •    informing the Secretary and                       IRS employees from temptations;
         the Congress of these
         problems and the progress                     •   proactively identify additional
         made in resolving them.                           violators of fraud based on
                                                           profiles of existing crimes;
As of March 27, 1999 (pay period ended                 •   identify     for    investigation,
date), the TIGTA staff totaled 980 as follows:             suspicious instances of computer
                                                           browsing through comparisons
 Audit                         393                         against established computerized
                                                           patterns; and,
 Investigations                455
                                                       •   report to the Secretary of the
 Information                     90                        Treasury, the IRS Commissioner,
 Technology                                                and the IRS Oversight Board,
 Other                           42                        internal control weaknesses that
                                                           resulted in fraud, along with
                                                           recommendations to correct the
                                                           deficiencies.
Authorities

The Treasury Inspector General for Tax                 In addition to these duties and responsibilities,
Administration (TIGTA) has all the                     the RRA98 amended the IG Act of 1978, 5
authorities granted under the Inspector                USC, Appendix 3, Section 8D to give TIGTA
General Act of 1978. In addition, the TIGTA            statutory authority to carry firearms and
has access to tax information in the                   enforce the provisions of Title 26, USC
performance of its responsibilities and the            Section 7608(b)(2). These functions include
authority to report criminal violations directly       the law enforcement authority to execute and
to the Department of Justice. The TIGTA and            serve search warrants, serve subpoenas, and
the Commissioner of IRS have established               make arrests.
policies     and     procedures      delineating       The TIGTA also has responsibility for
responsibilities to investigate offenses under         investigating allegations of misconduct on all
the internal revenue laws.                             IRS employees, including the IRS Chief

                     Treasury Inspector General for Tax Administration
                                      March 31, 1999
                                                   2
                              Semiannual Report to the Congress

Counsel and the IRS Oversight Board.                  In addition to these daily challenges, the IRS
Previously, these responsibilities were split         entered Fiscal Year (FY) 1999 facing some of
between the IRS Inspection Service and the            the most extensive and complex legislation
Treasury Inspector General, generally based           since the Tax Reform Act of 1986. The
on the grade level of the employees.                  Taxpayer Relief Act of 1997 imposed
                                                      numerous tax law changes and will require
                                                      extensive reprogramming of systems, changes
Information About Our Clients,                        to forms and instructions, and training for IRS
Taxpayers and the Internal                            employees.
Revenue Service
                                                      When      fully  implemented,    the    IRS
                                                      Restructuring and Reform Act of 1998
The Internal Revenue Service (IRS) collects           (RRA98) will result in enhanced taxpayer
over $1.7 trillion annually, or approximately         protection and rights and organizational
95 percent of the budget needed to fund the           changes intended to achieve a more efficient
nation's government.       This is no small           and responsive IRS.
achievement, since it requires the processing
of over 200 million returns, issuing over
80 million refunds, distributing over 1 billion
forms and publications, and servicing over             During congressional hearings, several
110 million taxpayers.                                 taxpayers testified to unfair and
                                                       unreasonable treatment by IRS employees.
As of March 27, 1999 (pay period ended
date), IRS employed 116,391 permanent and
temporary employees as follows:
                                                      RRA98 was passed, due in part to
                                                      congressional hearings which focused on the
          Description          Number
                                                      misuse of enforcement statistics and abusive
    Support Services              7,320               treatment of taxpayers. Several taxpayers
    Submission Processing        28,606               testified to unfair and unreasonable treatment
    Customer Service             29,302               by IRS employees. The new legislation also
    Taxpayer Advocate               615               mandates a change in the basic way the IRS
    Criminal Investigations       4,455
                                                      does business.
    Examination                  20,652
    Research/Statistics of          831               Commissioner Rossotti describes the changes
    Income                                            as serving taxpayers better by building a new
    Information Systems           7,195               IRS. In the months since passage of RRA98,
    Collections                  10,134
                                                      the Commissioner has been moving to make
    Legal Services                2,615
    Appeals                       2,161               major changes to modernize the IRS. The
    Employee Plans/Exempt                             concept for modernizing the Internal Revenue
    Organizations                 2,015               Service is much more than changing the
    International                   490               organization structure.     It is a complete
              Total             116,391               change in how the IRS does business. The
                                                      IRS must shift its focus from internal
                                                      operations to the taxpayer's point of view.
IRS must continually strive to achieve these
T




tasks while maintaining the highest level of          It is important to recognize the unparalleled
integrity and assuring taxpayer privacy. The          enormity of what the IRS will undergo as a
IRS must enforce tax laws to ensure that all          result of this legislation. The five major
parts of the taxpaying public pay the proper          efforts involved in implementing the concept
amount of tax.                                        are to:


                    Treasury Inspector General for Tax Administration
                                     March 31, 1999
                                                  3
                             Semiannual Report to the Congress


•   reorganize around the needs of its               The Office of Audit promotes the sound
    customers, the taxpayers;                        administration of the nation's tax laws by
                                                     conducting a number of comprehensive,
•   improve business practices from                  independent performance and financial audits
    customer education to filing                     of IRS programs, operations, and activities to:
    assistance to collection;
                                                     •     assess efficiency, economy,
•   establish clear responsibilities and                   effectiveness and program
    management roles for each division                     accomplishments;
    with accountability for meeting the
    needs of that group of taxpayers;                •     ensure compliance with applicable
                                                           laws and regulations; and,
•   establish necessary measures for
    organizational performance that                  •     prevent, detect, and deter fraud, waste,
    balances business results, customer                    and abuse.
    satisfaction, and employee
    satisfaction and productivity; and,
•   replace outdated computer systems                    The TIGTA recently advised the House
    with new systems that will support                   Ways and Means Committee on the most
    the new mission and goals.                           significant tax administration
                                                         vulnerabilities.
Further complicating IRS' tax administration
duties is the upcoming century date change
and how it will affect IRS computer systems.         In a January 20, 1999, letter, the Office of
Like the rest of private industry and                Audit advised the Chairman, Subcommittee
government, IRS is preparing its systems for         on Oversight of the House of Representatives
the Year 2000 (Y2K).                                 Committee on Ways and Means, of the most
Every aspect of tax administration could be          serious management issues facing IRS.
affected by the century date change since all        The TIGTA reported that the greatest
IRS functions rely to some degree on                 collective risks to tax administration are the
automated computer processes.                        1999 and 2000 income tax filing seasons due
To assist the IRS in meeting these challenges,       to several convergent factors. During that
as well as many other crucial tax                    period, the IRS must address the year 2000
administration initiatives, TIGTA has                date change challenge, major changes in the
developed      comprehensive     Audit    and        tax law, and replacement of major
Investigation programs for FY 1999.                  components of the tax processing system.
                                                     In addition, the IRS will face the challenge of
                                                     the consolidation of the mainframe computer
The TIGTA Audit Program                              operations of its 10 current processing service
                                                     centers nationwide (methodologies that began
The Assistant Inspector General for Audit            in 1961) into two computing centers. The
heads the TIGTA Office of Audit and has              most significant management issues facing
established a comprehensive method of                the IRS include:
strategic evaluation of IRS programs,                      •   processing      returns     and
activities and functions to expend TIGTA’s                     implementing tax law changes
Audit function resources in the areas of                       during the tax filing season;
highest vulnerability to the nation’s tax
system.


                    Treasury Inspector General for Tax Administration
                                     March 31, 1999
                                                 4
                              Semiannual Report to the Congress


    •   progressing in its Year 2000                   •   protect IRS employees against
        compliance efforts;                                external attempts to corrupt or
                                                           threaten its employees;
    •   implementing      the    IRS
        Restructuring and Reform Act                   •   promote the efficient and effective
        of 1998 -                                          administration of the tax laws;
                                                           and,
        q   Taxpayer Protection and
            Rights                                     •   detect and deter fraud and abuse
                                                           in IRS programs and operations.
        q   Information Technology
            Investment Management
        q   Quality Telephone and                      The Office of Investigations is committed to
            Walk-In       Customer                     ensuring that complaints or allegations of
            Service                                    criminal     misconduct       and   serious
                                                       administrative wrongdoing are independently
    •   minimizing tax filing fraud                    and objectively investigated.
        and protecting the revenue;
                                                       Investigations that result in administrative
    •   implementing the Govern-                       violations are referred to IRS management
        ment Performance and Results                   officials for appropriate action. Investigations
        Act;                                           involving apparent criminal offenses are
    •   selecting and controlling tax                  presented to U.S. Attorney offices for
        returns for examination; and,                  prosecutive merit and determination.

    •   managing its finances.                         The Office of Investigations program
                                                       activities are designed to protect the integrity
                                                       of the IRS. The Office of Investigations
The Office of Audit's program supports                 discharges this responsibility through
initiatives involving information technology           proactive and reactive investigative programs.
programs, Year 2000 conversion plans,
financial reviews, tax filing season activities,
                                                       The investigative program activities are
Government Performance and Results Act
                                                       designed to protect the integrity of the IRS
(GPRA) implementation, taxpayer protection
                                                       and to protect IRS employees against
and rights, and other critical IRS activities.
                                                       external attempts to corrupt or threaten them
Details of these and other program activities          when carrying out their responsibilities.
can be found in the Office of Audit section of
this report (begins on page 9).
                                                       In addition, the Office of Investigations is
                                                       committed to providing the highest priority in
The TIGTA Investigation Program                        terms of the responsiveness in investigating
                                                       threats and assaults against IRS employees.
The Assistant Inspector General for                    The Office of Investigations has placed
Investigations heads the TIGTA Office of               increased   emphasis      on    investigating
Investigations and conducts investigations and         allegations  of     serious   administrative
probes to provide IRS and Treasury                     misconduct involving IRS employees.
management with independent investigative              Section 1203 of RRA98 established a
products that:                                         mandatory penalty of removal for IRS



                     Treasury Inspector General for Tax Administration
                                      March 31, 1999
                                                   5
                              Semiannual Report to the Congress

employees who commit certain acts or                   National Integrity Program involves sharing
omissions in the performance of the                    with IRS executives and managers identified
employee’s official duties. Included in the list       areas of weak internal controls and the
of standards are falsifying or destroying              resulting employee fraud that occurred.
documents to conceal mistakes; willful failure
                                                       One goal is to foster an understanding of the
to obtain required approvals authorizing
                                                       importance of established internal control
seizure of taxpayer assets, making false
statements under oath, etc. For a complete list        systems, both to protect the Government from
of the Section 1203 violations, see                    losses, and employees from temptations.
Appendix V.
The Office of Investigations reviews                    Proactive detection focuses on profiling
allegations of taxpayer abuse received by               known crimes and computer browsing
TIGTA and makes a determination whether                 patterns and using computer applications
there is sufficient information to warrant the          to identify additional indicators of similar
initiation of an investigation. To ensure that
                                                        violations.
discipline relative to violations of the new law
is consistent at all levels within the IRS, an
IRS Review Board was established to review
all cases where there has been a determination         The second segment of the proactive National
that a violation of Section 1203 has occurred.         Integrity Program involves two avenues:
In addition, the Office of Investigations
investigates other prohibited activities
                                                          •    evaluating actual instances of
specified in RRA98 and the IG Act, including
                                                               criminal activity, developing a
those relating to the use of enforcement
                                                               computer "profile" of the
statistics for performance evaluations and the
                                                               improper transactions, and
setting of performance goals by IRS
                                                               matching that profile against
management officials.
                                                               massive volumes of other
Details of these and other TIGTA                               account      transactions    to
investigative program activities are located in                identify other violators; and,
the Office of Investigations section of this
report (begins on page 23).
                                                          •    matching predefined scenarios
                                                               of      computer    browsing
                                                               activities against the IRS'
The TIGTA National Integrity                                   millions    of   audit   trail
Program                                                        transactions recorded on its
                                                               Integrated Data Retrieval
The TIGTA National Integrity Program is                        System and other computer
managed by the Office of Investigations, with                  databases.
support from the Office of Audit and
TIGTA’s Office of Information Technology.
                                                       These national integrity projects were
The National Integrity Program was                     included in Computer Matching Act
established in 1994, to aggressively detect            agreements approved by the Treasury
wrongdoing within the IRS. Established on              Department's Data Integrity Board and
the premise that a proactive approach would            announced in the Federal Register.
identify areas of fraud that would otherwise
go undetected, the first segment of the


                     Treasury Inspector General for Tax Administration
                                      March 31, 1999
                                                   6
                            Semiannual Report to the Congress

In addition, internal control weaknesses that       Details of these and other program activities
permitted the employee fraud to go                  can be found in the National Integrity
undetected are reported to IRS executive            Program section of this report (begins on
management with recommendations for                 page 31).
corrective actions.




                   Treasury Inspector General for Tax Administration
                                    March 31, 1999
                                                7
                              Semiannual Report to the Congress



                Treasury Inspector General for Tax Administration
                                 Office of Audit

INTRODUCTION                                                                In addition, the Office
                                                                            of Audit works with
The Assistant Inspector                                                     the Office of Investi-
General      for    Audit                                                   gations, as appropriate,
(AIGA) is under the                                                         in response to allega-
general supervision of                                                      tions of misconduct,
the TIGTA. The AIGA                                                         fraudulent activities,
oversees the Office of                                                      waste, and abuse.
Audit and is respon-
                                                                           The Office of Audit
sible for the develop-
                                                                           also participates with
ment and execution of
                                                                           the Office of Investi-
the nationwide audit                 TIGTA Annual Audit Plan               gations in the TIGTA
program for Internal                    And Audit Reports                  National       Integrity
Revenue Service (IRS)
                                                   Program. (See the National Integrity Program
activities and opera-tions, including the
                                                   section of this report for information on joint
activities of the IRS’ Oversight Board and
                                                   audit and investigations efforts involving
Office of Chief Counsel.
                                                   proactive integrity projects.)
The mission of the Office of Audit is to
promote the sound administration of the
nation’s     tax     laws   by     conducting      AUDIT PLANNING
comprehensive, independent performance and
financial audits of IRS programs and               To accomplish its mission, the Office of Audit
operations to:                                     developed and published an annual audit plan,
• assess       efficiency,   economy,              which describes the audit focus and direction
    effectiveness      and    program              for FY 1999. The FY 1999 plan includes both
    accomplishments;                               mandatory audits required by Federal statute
                                                   or regulation and discretionary audit work
• ensure compliance with appli-                    approved by the AIGA.
    cable laws and regulations; and,
                                                     Mandatory Audit Coverage
•   prevent, detect, and deter fraud,
    waste and abuse.                                 Mandatory     audit     coverage    includes
                                                     information technology, taxpayer protection
Audit recommendations are made to:                   and rights, contracting and the Government
•   improve      tax     administration              Performance and Results Act (GPRA). See
    services;                                        Appendix VI for a listing of mandatory audit
                                                     requirements and TIGTA’s status of work on
•   strengthen controls over IRS                     these audits.
    programs and operations; and,
                                                     Additionally, the Office of Audit is planning
•   timely report on program and                     to implement a multi-year audit approach to
    operational deficiencies.                        reviewing IRS’ implementation of GPRA.
                                                     This Act is intended to improve the quality

                       Treasury Inspector General for Tax Administration
                                          March 31, 1999
                                                9
                             Semiannual Report to the Congress

and delivery of government services. The Act          process, which was designed to prioritize
also holds federal agencies accountable for           workload by focusing on the areas of greatest
program results by emphasizing goal setting,          risk to IRS.
customer      satisfaction,   and     results
                                                      Each year, the Office of Audit solicits input
measurement.
                                                      and suggestions for audit coverage from the
For FY 1999, the Office of Audit plans to             Commissioner and IRS executives. Those
perform high level assessments in the areas of        suggestions are then incorporated into the
IRS’ strategic planning process, GPRA                 audit plan development process. In the future,
communication and training process, and               audit requests also may originate from the
performance measure validity (customer                Congress and the IRS Oversight Board.
satisfaction, employee satisfaction, and
                                                      This process applies risk factors to key audit
business results).    The results of these
assessments will be used to determine the             areas in IRS, and documents and summarizes
number of individual audits needed to                 results to aid the Office of Audit management
                                                      in selecting areas for coverage. Risk factors
thoroughly evaluate IRS’ implementation of
                                                      are the criteria used to identify the relative
GPRA.
                                                      significance of, and the likelihood that,
The Office of Audit is also responsible for           conditions or events may occur that adversely
conducting reviews on the financial                   affect the organization. Some of the factors
operations of the IRS. In FY 1999, the Office         used in evaluating the risks associated with
of Audit staff will perform audit tests in            IRS' auditable areas include: impact of new
support of the audit of IRS financial                 programs; tax law changes; adequacy and
statements. This assignment is part of a              effectiveness of internal controls; prior audit
training effort with the General Accounting           findings; and, stakeholder concerns.
Office (GAO), which has exercised its
authority to conduct the audit and opine on           Follow-up on Audit Reports with
the IRS financial statements for FY 1999.             Unimplemented Corrective Actions
Involvement will better position the Office of
Audit to eventually assume responsibility             Due to the large number of previously issued
from GAO for auditing the IRS financial               audit reports with unimplemented corrective
statements. In addition, at the request of the        actions (See Appendix III), we are developing
Department’s      Assistant   Secretary    for        a strategic approach in our Fiscal Year 2000
Management/Chief Financial Officer, the               audit plan to review the status of each of these
Office of Audit is separately assessing the           recommendations to determine if:
design of and monitoring progress on the IRS
action plan that is addressing IRS’ long-                 •   the time frame for implemen-
standing      problems      with     financial                tation of the corrective action
management.                                                   seems reasonable;
                                                          •   the pending corrective action
Discretionary Audit Coverage                                  item should be closed due to
                                                              changing conditions that have
Discretionary audit work is dependent on the                  mitigated the need for
resources remaining after staff has been                      additional action; or,
assigned to accomplish the mandatory audit
requirements. The Office of Audit’s planned               •   a follow-up audit is warranted
discretionary work was identified through a                   to assess the status of IRS’
comprehensive, high-level risk assessment                     implementation       of    the
                                                              corrective action.

                    Treasury Inspector General for Tax Administration
                                         March 31, 1999
                                                 10
                             Semiannual Report to the Congress

SIGNIFICANT AUDIT RESULTS                             The Y2K century date change (CDC) is one
                                                      of the most critical problems facing business
During this reporting period, the Office of           and       government        data   processing
Audit initiated the majority of its in-process        organizations. The Y2K problem is extremely
audits after formulating an annual audit plan         critical for IRS, because the CDC could affect
which was based largely on the recently               every aspect of tax administration. Virtually
developed risk assessment process.        The         all IRS functions, to some degree, rely on
majority of those final audit reports will be         automated computer processes.
issued in the remaining six months of
                                                      To maximize system-processing capabilities
FY 1999.
                                                      and to preserve data storage space, many date
The Office of Audit also lost the availability        fields in IRS’ system programs and
of some of its senior management and staff            applications have been limited to a two-digit
from time normally expended on managing               representation (i.e., 98 for 1998).
and conducting audits, to activity involving
                                                      IRS estimates the cost for Y2K changes will
the legislative requirements of RRA98,
                                                      be approximately $850 million through FY
including planning and preparation for the
                                                      1999. These costs include updating and
new TIGTA mandated annual reviews and the
                                                      testing over 80 mainframe computers (Tier I
IRS’ preparations for implementing the many
                                                      computers), 75,000 computer application
provisions of RRA98.
                                                      programs, 1,400 minicomputers (Tier II
With the remaining direct staff resources             computers), and 100,000 desktop computers
available, the Office of Audit issued 27 audit        (Tier III computers), as well as data
reports covering topics such as Year 2000             communications networks comprising more
Conversion, Filing Season Readiness, and              than 50,000 individual product components.
Information Technology.
                                                      IRS management estimates 50 million lines of
Audit resources were focused in the areas             programming code need to be reviewed for
having the most significant and inherent risks        possible changes. If mission critical code is
to IRS. The results of the most significant           not Y2K compliant, IRS systems may not run,
reviews are discussed in the following                causing the processing of tax returns to slow
sections.                                             down or stop.
    Year 2000 (Y2K) Compliance                        As a result, taxpayers may not receive timely
             Progress                                 refunds or notices, and account adjustments
                                                      may not be processed. As the Year 2000
                                                      approaches, it is imperative that all major tax-
       December 1999                                  processing systems be Y2K compliant to
   Su Mo Tu We Th Fr Sa                               avoid processing shutdowns.
             1 2 3 4
    5 6 7 8 9 10 11                                   The Office of Audit has conducted several
                       January 2000                   reviews to assess IRS efforts for ensuring that
    12 13 14 15 16 17 18
                  Su Mo Tu We Th Fr Sa
    19 20 21 22 23 24 25                              all IRS systems (Tier I, II, and III) and
                                      1
   26 27 28 29 30 31
                    2 3 4 5 6 7 8                     programs are Y2K compliant, including
                    9 10 11 12 13 14 15               project management, inventory and tracking,
                   16 17 18 19 20 21 22               and software and hardware issues.
                   23 24 25 26 27 28 29
                   30 31




                    Treasury Inspector General for Tax Administration
                                         March 31, 1999
                                                 11
                              Semiannual Report to the Congress

In-process reviews include:                            clarification   were   needed    to     IRS
                                                       programming standards to avoid any risk that
•   Preparation of Tier II Systems                     this programming error could affect future
    (minicomputer) for CDC;                            IRS processing.
•   Management      Controls      for                  At the time of the October 1998 follow-up
    Oversight of IRS CDC;                              review, the CDC Project Office had not
•   Y2K Conversion Efforts – Tier                      implemented a change in IRS’ programming
    III (desktop computers);                           standards.

•   Y2K      End-to-End       Systems                  The Office of Audit's report noted two
    Integration Test II and III;                       additional areas requiring further IRS action.
                                                       Specifically, the CDC Project Office should:
•   Effectiveness of Y2K Testing
    Efforts; and,                                      •   coordinate the development and
                                                           issuance     of     documented
•   Y2K External Trading Partner                           procedures for recompiling all
    Issues – Phase II.                                     IRS programs after the related
                                                           system macros are modified; and,

Highlighted final audit reports include:               •   develop a more aggressive
                                                           schedule   for   ensuring    the
                                                           development of test deliverables
Follow-Up Review of Corrective                             for all commercial-off-the-shelf
Actions Resulting from Audit’s                             (COTS) products.
Phase III Code Review
(Report No. 090102)                                    The Office of Audit recommended that the
                                                       CDC Project Office review the original
                                                       recommendations       and    coordinate   the
TIGTA auditors conducted an on-line review
                                                       development and issuance of all documented
of IRS’ Y2K conversion and testing to
                                                       procedures for recompiling all IRS programs
determine the effectiveness of efforts in
                                                       after related system macros are modified.
converting those application components that
comprise the bulk of the tax processing                Also, the testing and certification of all COTS
systems. (Report No. 083605). As the Y2K               products should be made a priority because of
situation is extremely critical, this follow-up        the potential impact these products could have
audit was completed in October 1998 to                 on the comprehensive testing effort currently
determine if the corrective actions, identified        underway.
in the June review, were completed.
                                                       IRS     management       agreed    with     the
During the follow-up review, the Office of             recommendations and has completed the
Audit analyzed 32 corrective actions that were         corrective action on all reported audit issues.
identified in the previous report, and                 One action included hiring an outside
identified three significant areas warranting          consultant to review 100 percent of the
additional attention.                                  programming code questioned.
The original audit identified 42 components
where the date field was defined as a
character rather than as a numeric field. IRS
was advised that greater adherence and


                     Treasury Inspector General for Tax Administration
                                           March 31, 1999
                                                  12
                             Semiannual Report to the Congress


Evaluation of the Service’s Efforts                   IRS’ Integrated Network and Operations
to Implement Year 2000                                Management System (INOMS).         INOMS
Compliance for External Trading                       tracks Automated Data Processing equipment
Partners                                              used throughout IRS.
(Report No. 091303)                                   IRS also is working toward being classified as
                                                      a Capability Maturity Model Level 2
In 1996, IRS established the CDC Project
                                                      organization to institutionalize effective
Office with an objective to ensure that all
                                                      management processes for software projects,
systems are Y2K compliant. This requires
                                                      which will allow for repetition of successful
close coordination with many External
                                                      practices developed on earlier projects.
Trading Partners (ETPs)—organizations that
exchange data with IRS—including state,               The Office of Audit reported that IRS needs
local, and foreign governments; banks; and            to continue with its efforts to improve the
other Federal agencies. The CDC Project               accuracy of the APR, ensure developers and
Office has encountered delays in completing           testers document test activities and give
several ETP activities.                               greater    consideration   to   how    Y2K
                                                      programming changes will affect hardware
The Office of Audit evaluated IRS’ efforts to
                                                      capacity and system performance.
implement Y2K compliance of the external
data exchanges. The Office of Audit reported          In addition, the Office of Audit noted the
the CDC Project Office has made                       CDC Project Office has not established
considerable progress in completing an                controls to verify the accuracy of Y2K
inventory of external data exchanges and              compliance certifications.         Since these
communicating IRS’ Y2K format changes                 certifications are not validated, the CDC
with ETPs.                                            Project Office is unable to fully assess the risk
                                                      that exists for programs that are not Y2K
The Office of Audit recommended that IRS
                                                      compliant. IRS management agreed with the
management continue its efforts to ensure that
                                                      findings and has initiated corrective action.
IRS systems meet Y2K compliant standards
and that discrepancies in the inventory of
externally exchanged data files and data              Review of the Service’s Year 2000
exchanges are corrected.                              Non-Information Technology
                                                      Project
IRS management was responsive to the
                                                      (Report No. 090503)
findings during this on-line review and has
initiated corrective action.                          Although Y2K conversion efforts primarily
                                                      focus on information systems, there are
Review of Phase 4 Year 2000                           numerous facility systems and personal
Conversion and Testing                                property items that use microchips, software,
(Report No. 090403)                                   firmware, or other mechanisms for controlling
                                                      time and date logic that could be impacted by
Based on prior audit recommendations                  the CDC. These systems comprise the Non-
(Report No. 083605), IRS initiated actions to         Information        Technology       (Non-IT)
improve its Y2K certification efforts and             environment.
improve the accuracy of its Applications
Program Registry (APR) data. The APR                  The Office of Audit reported that IRS has
contains inventory data on the phase, number          initiated steps to prepare its Non-IT
and status of Y2K programs by linking the             environment for Y2K. However, a significant
standardized project name and phase with              amount of work must still be completed to


                    Treasury Inspector General for Tax Administration
                                         March 31, 1999
                                                 13
                              Semiannual Report to the Congress

ensure Non-IT equipment becomes Y2K                     the accuracy     and    completeness    of   the
compliant. In addition, the CDC Project                 inventory.
Office needs to enhance its program
                                                        The Office of Audit identified that the
management efforts to better direct and
                                                        platform inventory is complete, but nearly
coordinate Non-IT conversion activities.
                                                        half of the 837 platforms reviewed were
The Office of Audit recommended that the                recorded inaccurately. The COTS software
CDC Project Office define and document the              inventory also was incomplete and inaccurate.
requirements for all phases of IRS’ Non-IT              Approximately 28 percent of the 411 products
conversion process; require supporting                  were not recorded on INOMS, and 22 percent
functions to provide detailed work breakdown            were recorded with the incorrect version.
schedules; and, determine whether the process
                                                        During the audit, IRS management addressed
used to certify investigative equipment was
                                                        the issues that the Office of Audit presented.
appropriate.
                                                        However, the final report was issued without
Also, IRS’ Office of Management and                     IRS management’s response to all reported
Finance, in conjunction with the functional             issues.
area chiefs, should ensure all IRS occupied
buildings are prioritized for conversion. IRS           Subsequent to the issuance of the final report,
management agreed with the findings and has             IRS management provided a response and has
                                                        initiated corrective action on all reported audit
initiated corrective action.
                                                        issues.
Review of the Service’s Efforts to                      Review of the Internal Revenue
Prepare Its Tier II Infrastructure for                  Service’s Effectiveness in the
the Year 2000                                           Monitoring and Reporting of Year
(Report No. 091206)                                     2000 Funds
                                                        (Report No. 092204)
This report included the results of the Office
of Audit's review of IRS’ efforts to prepare its        The CDC Project Office established a Budget
Tier II (minicomputer) infrastructure for the           Office to obtain, distribute and manage Y2K
CDC.                                                    appropriated funds. The Budget Office is
                                                        responsible for managing Information
Although the majority of IRS’ tax processing            Systems (IS) and non-IS funds for the CDC
occurs at the Tier I (mainframe computer)               project and to track budgetary information for
level, there is a significant amount of                 the CDC Project Office, IRS executives, and
processing at the minicomputer level. As a              other internal and external stakeholders.
result, some minicomputer systems feed data
to the mainframe computer systems.                      The Budget Office also is responsible for
                                                        monitoring and reporting the availability and
The report recommended that IRS better                  use of congressionally mandated funds;
focus, manage, and control its CDC effort to            unobligated funds transferred from expired
assure business continuity.          Critical           IRS accounts; and, supplemental full time
improvements are needed for: planning and               equivalents (FTEs) from within IRS'
coordination of the conversion effort;                  operational budget.
inventory management; and, contingency
planning.     In addition, IRS management               IRS has been effective in accounting for its
needs to ensure consistency between Y2K                 Y2K funds. However, more attention is
needs and the INOMS instructions to improve             needed in the identification of decreased
                                                        funding requirements and the recording of


                     Treasury Inspector General for Tax Administration
                                          March 31, 1999
                                                   14
                             Semiannual Report to the Congress

Y2K payroll expenditures. While the Budget            reexamine the completeness of the COTS
Office uses a working budget report and               product inventory.
biweekly budget meetings for monitoring and
                                                      To minimize risks associated with inaccurate
assessing additional budget needs, IRS
                                                      or incomplete inventories, the Office of Audit
management must become more proactive in
identifying unused funds.                             recommended that CDC Project Office
                                                      management improve its guidance on how
In addition, IRS needs to ensure that complete        these products are to be reported in the
and accurate information is recorded and              inventory and to re-examine the completeness
reported for Information Systems’ FTEs                of its COTS inventory. In addition, an
expended on Y2K efforts. Further, time                independent verification of the INOMS
charges to the Y2K Project Cost Accounting            inventory of COTS products should be
Subsystem (PCAS) codes are not complete,              conducted for all Tier I (mainframe) computer
accurate, or properly classified.                     systems. IRS management agreed with the
                                                      recommendations and initiated appropriate
The Office of Audit recommended that IRS
                                                      corrective actions.
improve its monitoring procedures of
available funds and ensure that appropriate
PCAS codes are used and that time charges             Review of the Internal Revenue
are accurately and completely reported. IRS           Service’s Year 2000 Contingency
agreed with the findings and has initiated            Planning Efforts
corrective action.                                    (Report No. 092705)
Review of the Internal Revenue                        The Y2K problem is complicated by the size,
Service’s Year 2000 Efforts to                        complexity, and interdependencies of the IRS’
Inventory Telecommunications and                      computer systems. The consequences of
Commercial Off-the-Shelf Products                     system failures and the absolute deadline
(Report No. 092402)                                   make it a critical task for an organization as
                                                      large and as reliant on computers as the IRS.
The CDC Project Office has the responsibility         Because of the enormity of the task, there is
for controlling IRS’ Y2K effort to inventory,         risk that all systems will not be converted in
convert, upgrade, or replace computer-related         time.
equipment and software so that all automated          The Office of Audit’s review of IRS’
data     processing     functions    continue         contingency plans indicated that IRS has not
uninterrupted into Y2K.                               devoted sufficient emphasis to Y2K
The Office of Audit review was conducted to           contingency planning. The database used for
provide a preliminary assessment of the               tracking the conversion process was
adequacy of IRS efforts in two areas: the             inaccurate and has not improved.          The
inventory of telecommunications equipment;            unreliable data hinders IRS management’s
and, the inventory of system software and             ability to monitor conversion progress and
COTS products. Technical expertise for this           prepare contingency plans for systems at risk
review was acquired under contract.                   of not meeting the conversion deadlines.
                                                      Even when the data did identify systems at
The review by the Office of Audit indicated           risk, IRS management did not follow its own
that CDC still has significant work to                processes and did not ensure that contingency
accomplish      to       complete       the           plans were timely developed. In addition,
telecommunications   inventory    and    to           IRS had not properly coordinated the Y2K


                    Treasury Inspector General for Tax Administration
                                         March 31, 1999
                                                 15
                             Semiannual Report to the Congress

contingency planning efforts with its overall         implement National Performance Review
contingency planning efforts for disasters and        recommendations.
other types of failures.
                                                      In light of these changes, the Office of Audit
The Office of Audit recommended the                   conducted reviews to assess IRS’ ability to
following corrective actions:                         timely and effectively process returns, issue
                                                      refunds, and answer taxpayer questions.
•   review Y2K inventory files on a
                                                      In-process reviews include:
    recurring basis;
•   establish validity checks;                        •   Information Systems’ Quality
•   establish procedures to identify                      Assurance Over Key Tax Laws
    and monitor components and                            for 1999 Filing Season;
    systems that have not completed
    the Y2K milestones;                               •   Walk-In Assistance On-Line -
                                                          1999 Filing Season;
•   establish procedures to identify
    “at risk” systems during the                      •   Toll-Free Services During the
    certification process;                                1999 Filing Season;
•   adhere to the formal Contingency
    Request Memorandum process;                       •   Early Implementation of Tax
•   assign responsibility for the IRS’                    Laws – 1999 Filing Season;
    overall contingency management                    •   1999 Filing Season Readiness –
    strategy; and,                                        Individual Master File;
•   consider monitoring the status of
    contingency planning as part of                   •   Taxpayer Assistance on Key Tax
    the Y2K report.                                       Laws – 1999 Filing Season; and,
                                                      •   Implementation of Legislative
The Office of Audit did not agree that IRS                Provisions – Year 2000 Filing
management’s response adequately addressed
                                                          Season,    Individual    Master
the problems and corrective actions and
                                                          File/Non-Individual Master File.
included “auditor comments” in the final
report transmittal to the Commissioner.
                                                      Highlighted final audit reports include:

       Filing Season Readiness                        Executive Compilation and
                                                      Interpretation of the 1998 Filing
IRS’ 1999 and 2000 filing seasons will be             Season
impacted by numerous organizational and               (Report No. 091903)
legislative changes. Legislation enacted in
1997 and 1998 in the Taxpayer Relief Act,             The Office of Audit evaluated the 1998 filing
Balanced Budget Act, and RRA98 is the most            season in terms of the progress IRS was
extensive and complicated legislation IRS has         making to become a “customer focused”
faced since the Tax Reform Act of 1986.               organization     based     on      the    IRS
The 1999 and 2000 filing seasons will be              Commissioner’s concept for modernizing IRS
further complicated by ongoing efforts to             and on IRS' Customer Service Task Force
meet Y2K deadlines, consolidate IRS                   report, “Reinventing Service at the IRS.”
mainframe processing to two sites, and                Success of the 1998 filing season was
                                                      determined by how IRS prepared for and met

                    Treasury Inspector General for Tax Administration
                                         March 31, 1999
                                                 16
                             Semiannual Report to the Congress

the needs of taxpayers in the areas of:                could not implement the Office of Audit’s
processing tax returns (both paper and                 recommendation to use “whole dollars only”
electronic individual tax returns); issuing            for all tax return entries to reduce processing
timely refunds; providing customer assistance          errors and taxpayer burden. The Office of
at walk-in sites; and, through the expansion of        Audit added an "auditor comment" to the final
toll-free telephone service.
                                                       report recommending IRS seek the legislative
The review showed that IRS had a successful            approval necessary for the change.
1998 filing season. This success included
                                                       Although IRS is taking several actions next
significant increases in the number of returns
filed electronically, implementation of a              filing season to enhance electronic filing, IRS
                                                       management did not agree that the Office of
number of tax law changes, and significant
                                                       Audit’s recommendation to encourage
improvements in customer service through the
expansion of toll-free telephone service and           increased Telefile usage would provide a
the introduction of Saturday walk-in service.          strong incentive for more taxpayers to use the
                                                       System.
In addition, IRS was able to process returns
accurately and issue refunds timely.                   Also, the Commissioner did not agree that the
The number of electronic returns filed far             IRS should implement a structured process to
surpassed the 1998 goals, which can be                 quickly identify and react during the filing
                                                       season to taxpayer and IRS processing
attributed to the extensive efforts by IRS to
                                                       problems. The Office of Audit remains
encourage taxpayers to file electronically.
                                                       concerned that IRS does not have an adequate
These accomplishments proved to be                     process to quickly identify and react to
significant in meeting taxpayer needs and              processing problems during the filing season.
improving customer service to meet the IRS
Commissioner’s goal of providing first-rate
service to taxpayers. However, the audit                      Information Technology
results indicated that improvements can be
                                                       Modernization of IRS’ computer systems and
made in electronic filing, simplification of
                                                       security of taxpayer information have been
return filing, improving customer service and
                                                       major concerns over the past several years.
in meeting the challenges for the 1999 filing
                                                       Prior efforts to modernize antiquated tax
season.
                                                       systems fell short of what is required to
The RRA98 goal of 80 percent of tax returns            prepare IRS for the next century.
to be electronically filed by the year 2007
                                                       RRA98 requires TIGTA to evaluate the
poses a difficult challenge and will require
                                                       adequacy and security of IRS technology on
elimination of barriers, such as the additional
                                                       an ongoing basis.
costs to electronically file and the
requirements to mail in signature documents            Reviews performed in this area focused on
and Form W-2 statements.                               assessing IRS’ progress in implementing its
                                                       modernization       initiatives,     including
In response to the Office of Audit’s report,
                                                       procurement      practices       to    support
IRS agreed to explore: the possibility of
                                                       modernization efforts, and evaluating
providing a simpler tax form for millions of
                                                       Information Systems’ success in meeting the
taxpayers; raising the dollar tolerance on
                                                       business needs of operational functions.
interest and dividends for submitting a
separate schedule; and, establishing a                 In-process reviews include:
taxpayer profile database. The IRS responded
that unless it gets Congressional approval, it

                    Treasury Inspector General for Tax Administration
                                          March 31, 1999
                                                  17
                              Semiannual Report to the Congress

•   Integrated   Submission  and                      In January 1998, the Office of Audit issued a
    Remittance Processing (ISRP)                      report on the Initial System Development
    System – Phase III;                               Activities of the ISRP System (Report No.
                                                      082204).       This report identified IRS’
•   Readiness for Service Center                      aggressive rollout schedule, the absence of
    Mainframe Consolidation;                          contingency       plans,   and     increased
•   Telecommunications Costs and                      development risks for the Residual
    Capacities     for Mainframe                      Remittance Processing System (RRPS)
    Consolidation;                                    functionality.

•   Office of Systems Standards and                   The primary objective of this review was to
    Evaluation;                                       determine if the decisions and activities
                                                      regarding the design, development, and
•   Operational Security Controls;                    installation of the ISRP pilot systems were
                                                      complete and reliable.
•   Logical Access      and    Security
    Controls; and,                                    The Office of Audit reported mixed results on
                                                      the pilot system, and risks remain for
•   Telecommunications Security of                    successful implementation of a nationwide
    IRS Computer Systems.                             production system. Specifically, the RRPS
                                                      demonstrated inconsistent reliability as a
Highlighted final audit reports include:              production system, and neither ISRP
                                                      subsystem      conclusively     demonstrated
Review of the Integrated                              anticipated productivity gains.
Submission and Remittance                             There are additional system design, project
Processing (ISRP) System Software                     scheduling and resource allocation risks,
Development and Pilot Activities                      which management must continue to monitor
(Report No. 090903)                                   and address to ensure successful nationwide
                                                      implementation before January 1, 2000.
The Integrated Submission and Remittance
Processing (ISRP) System will replace IRS’            The Office of Audit findings and
primary data input systems for processing             recommendations were presented to IRS
paper tax returns and remittance processing—          management during the progress of this on-
the Distributed Input System and the                  line review. Any recommendations that were
Remittance Processing System.            This         not immediately addressed by IRS
replacement is critical because IRS' existing         management during the review were
computer systems are 13 and 20 years old,             subsequently resolved or acknowledged by
respectively, and neither is capable of               IRS management during pilot operations.
processing dates beyond the year 1999.
The ISRP systems development project is one           Management Oversight Should Be
of four critical Information Systems’ projects        Strengthened to Improve
monitored monthly by the Commissioner’s               Administration of the Treasury
Year 2000 Executive Steering Committee.               Information Processing Support
This review focused on IRS' mission-critical          Service (TIPSS) Contract
need for Y2K compliant systems to process             (Report No. 090205)
taxpayers’ paper tax returns.
                                                      The Treasury Information Processing Support
                                                      Services (TIPSS) contract consists of multiple

                     Treasury Inspector General for Tax Administration
                                           March 31, 1999
                                                 18
                               Semiannual Report to the Congress

contracts to support        IRS’   tax    system        Management agreed with the findings and has
modernization efforts.                                  initiated corrective action.
While TIPSS is assisting IRS in acquiring
information technology services, there is               Evaluation of the Service’s Efforts
minimum incentive for the contractor to                 to Acquire a new Federally Funded
control costs because TIPSS is a cost-plus-             Research and Development Center
fixed-fee contract. Therefore, it is imperative         (FFRDC) Contractor
that the contract be effectively administered to        (Report No. 091502)
allow the Service to monitor and evaluate the
contractor’s progress.                                  IRS has undertaken a complete redesign and
                                                        modernization     of     its    computer-based
The Office of Audit reported that not all               information processing system. To assist with
controls were effective to ensure services              the modernization efforts, IRS is soliciting a
were received in accordance with contract               prime systems integration (PRIME) contractor
provisions.                                             and another Federally Funded Research and
In particular the auditors noted that:                  Development Center (FFRDC) contractor to
                                                        manage the overall modernization efforts. By
•   84 percent of contractor task                       establishing a FFRDC, IRS can obtain
    orders were issued without                          technical     assistance       without       any
    defining the contractor’s cost,                     organizational conflicts of interest, either real
    which may lessen the contractor’s                   or apparent.
    motivation to perform the task
                                                        The PRIME contract and the new FFRDC
    order as efficiently as possible;
                                                        contract will be used in conjunction with
•   contractor performance is not                       several other contracts to implement the
    being timely evaluated each                         planned modernization.          The PRIME
    quarter by the Contracting Officer                  contractor will implement the modernization
    Technical Representatives; and,                     blueprint, and the new FFRDC contractor will
                                                        validate the approach of the PRIME
•   contractors were invoicing IRS for                  contractor to ensure it is consistent with the
    significantly fewer hours than                      modernization blueprint.
    were originally contracted for
    under      a    term      contract.                 The report noted that although IRS is
                                                        soliciting contractors to assist with its
                                                        modernization efforts, additional emphasis is
Under a term contract there is an opportunity           needed to define the interrelated roles of the
to renegotiate the contract when it appears the         various contractors to ensure all contractors
full number of hours will not be needed.                remain free from potential conflicts of
However, the report noted that for                      interest. To do so, IRS needs to clearly define
eight completed term-type task orders, the              the responsibilities of all contractors involved
contractors invoiced IRS for fewer hours than           in the modernization efforts.
contracted.         This    process   allowed           In addition, procurement personnel need to
approximately $490,000 in fixed fees                    take action to ensure the FFRDC will be free
associated with the original contract costs to          from organizational conflicts of interest.
remain      obligated    to    the   contract.
Approximately $3,517,000 had not been                   Management agreed with the findings and has
deobligated on 28 task orders that had been             initiated corrective action.
completed for over one year.

                     Treasury Inspector General for Tax Administration
                                           March 31, 1999
                                                   19
                              Semiannual Report to the Congress


    Taxpayer Protection and Rights                     Management agreed with the findings and has
                                                       initiated corrective actions.
RRA98 will result in enhanced taxpayer
protection and rights, as well as                      IRS Employee Outside Employment
organizational changes intended to achieve a           Requests
more efficient and responsive IRS.                     (Report No. 091804)
In-process reviews include:
                                                       The Office of Audit presented control issues
•    Impact of Examination Quality on                  that were identified during separate integrity
     Taxpayer Rights and Burden; and,                  reviews in two regions.
•    Protecting the Privacy of Tax                     Not all employee requests for permission to
     Account Disclosures.                              engage in employment outside the IRS were
                                                       properly    received,     approved,     and/or
Highlighted final audit reports include:               monitored by IRS management as required to
                                                       prevent conflicts of interest between the IRS
                                                       employees’ official duties and their outside
Review of Taxpayer Requests for                        employment.       Also, abuses of outside
Disclosure of Tax Information                          employment authorizations were not detected.
(Report No. 090804)
                                                       The Office of Audit identified one IRS
                                                       employee who was preparing tax returns for
In FY 1997, IRS received over 1.1 million              compensation and referred 56 other IRS
requests for tax return information from the           employees to the Office of Investigations as
public. Requests were made for photocopies
                                                       possible browsers of tax records for either
of tax returns or for transcripts of tax return        their outside employers or their spouses’
information.                                           employers. Based on these referrals, two
Beginning in October 1994, IRS offered to              employees resigned, and IRS management
provide taxpayers with transcripts of return           removed one employee and took other
information free of charge as an alternative to        disciplinary action on other employees.
providing photocopies of returns at a cost to          To improve the internal control weaknesses,
the taxpayer of $14. However, providing                the Office of Audit recommended that:
transcripts of return information has made
IRS extremely vulnerable to unauthorized               •   national guidelines be updated and
disclosure of tax return information.                      clarified;
The Office of Audit recommended that IRS               •   a one-time resubmission of all
implement the following corrective actions:                outside employment requests be
                                                           made to enable a national clean-
•    processing controls need to be
                                                           up of Labor Relations’ and
     improved;
                                                           managers’ records;
•    requirements for the release of tax
                                                       •   employees be reminded that
     return      transcripts       need
                                                           unauthorized research of the tax
     strengthening; and,
                                                           records      of  their   outside
•    written requests from taxpayers                       employers, or the tax records of
     need to be properly maintained.                       their spouses’ employers, will
                                                           subject them to disciplinary
                                                           action; and,

                     Treasury Inspector General for Tax Administration
                                           March 31, 1999
                                                  20
                             Semiannual Report to the Congress

•   the Totally Automated Personnel                   Review of Special Projects in the
    System and Outside Employment                     New Jersey District Collection
    System be implemented in each                     Division
    Labor Relations office that has                   (Report No. 093307)
    these systems.
                                                      In FY 1998, the Office of Audit performed
Management       agreed       with       the          two audits in the New Jersey Collection
recommendations and has initiated corrective          Division that focused on the use of Collection
actions.                                              performance measures, statistics, and the use
                                                      of seizure authority. The Office of Audit
Follow Up Review of Parent and                        concluded that the focus on collection
Dependent Duplicate Exemption                         productivity, from a national perspective, had
Claims                                                created an overall climate that potentially sets
(Report No. 091000)                                   the stage for miscommunications to
                                                      employees and managers at all levels of the
The Office of Audit issued an audit report in         organization.
1996 (Report No. 063502) advising IRS
management that action was needed to reverse          The reports also indicated that the New Jersey
the continuous and costly problem of                  District’s strong focus on achieving
duplicate use of Social Security Numbers              organization productivity goals created an
(SSNs).                                               atmosphere that impacted front-line collection
                                                      operations in a manner that placed taxpayers’
IRS management agreed with the auditors’              rights at risk. Facts identified in the Liquor
recommendations to minimize both taxpayer             License Project contributed to this conclusion.
burden and the impact on IRS’ resources, and
to segment the condition for control and              Based on the results of the two audits, the
aggressive management. As a result, IRS               Office of Audit conducted this review of
management placed the Duplicate Dependents            special projects in the Collection Division.
Project in its FY 1996 Research Plan.                 The objective was to determine whether
                                                      projects were established based on sound
Since the date this issue was reported, IRS           evidence and support, controlled to ensure
management efforts have shown some                    that project objectives were achieved, and
positive results in identifying potential             monitored to ensure that taxpayers’ rights
solutions for the duplicate SSN problem.              were protected.
However, the initial results are not complete,
and IRS management intends to continue                IRS has a legitimate need to assist taxpayers
testing.                                              in voluntarily meeting their tax obligations by
                                                      tailoring efforts to the needs of market groups,
One test IRS management conducted was                 as well as developing methods to enforce
correspondence examinations on a nationwide           payment when other alternatives are
sample of repeat taxpayers (those in both the         unsuccessful.
Tax Year 1995 and 1994 duplicate SSN
populations). These examinations resulted in          The Office of Audit reported that special
approximately $3.2 million in adjustments to          projects were used to help the New Jersey
taxpayers’ accounts.                                  District Collection Division achieve statistical
                                                      goals, while resulting in mistreatment of
IRS management agreed with the facts                  taxpayers. During the audit, the Acting
presented in this follow-up report.                   District Director suspended activity on all
                                                      Collection Division special projects. All


                    Treasury Inspector General for Tax Administration
                                         March 31, 1999
                                                 21
                             Semiannual Report to the Congress

special projects have now been closed and the         •   are consistent with enforcement
TIGTA Office of Investigations is conducting              actions taken on non-project
inquiries into some of the report findings.               cases;
To strengthen the use of special projects in a        •   have a sound basis for initiation;
manner consistent with both sound tax                     and,
administration and concern for taxpayers, the
Office of Audit recommended that the District         •   are properly reauthorized when
Director approve all levy and seizure actions             there are changes in objectives,
on special project cases. The Office of Audit             scope, or project duration.
also     recommended       that    Collection         Finally, special projects should be adequately
management certify that all legal and                 documented, and District Counsel should
procedural requirements are met prior to              review and approve all locally developed
seizure or levy.                                      notices used on special projects.
IRS management also should ensure that                IRS management agreed with the findings and
enforcement actions taken on special project          has initiated corrective action.
cases:




                    Treasury Inspector General for Tax Administration
                                         March 31, 1999
                                                 22
                              Semiannual Report to the Congress



             Treasury Inspector General for Tax Administration
                          Office of Investigations


INTRODUCTION                                            INVESTIGATIVE ACTIVITIES

The TIGTA Office                                                                The       Office       of
of Investigations is                                                            Investigations focuses
responsible for the                                                             on investigating alle-
development      and                                                            gations of serious
execution of the                                                                administrative or crim-
nationwide investi-                                                             inal misconduct which
gative      programs                                                            may involve IRS
relating to oversight                                                           employees, such as
of activities of the                                                            bribery,        financial
Internal     Revenue               Investigation Badges 1952 - 1999             fraud, false statements,
Service (IRS) and its                                                           computer violations,
operations.                                             disclosure of tax information, and abuse of
                                                        taxpayer rights. During this reporting period,
The Office of Investigations is responsible for
                                                        the Office completed 438 employee
protecting the integrity of the IRS and for
                                                        misconduct investigations.
protecting employees of the IRS and related
entities against external attempts to corrupt or        The Office of Investigations also investigates
threaten them when carrying out their                   individuals who attempt to interfere with or
responsibilities. This includes investigating           corrupt the administration of the federal
allegations of criminal wrongdoing and                  income tax system, to include investigations
serious administrative misconduct by IRS                of bribery, assault, threat, theft, and
employees.                                              embezzlement.         During this six-month
                                                        reporting period the Office of Investigations
Other areas of responsibility include:                  completed 859 investigations involving these
                                                        types of allegations.
• administering programs to protect
     IRS employees from violence;                       TIGTA special agents routinely conduct
                                                        integrity awareness presentations for IRS
• operating a national complaints                       employees      and     various      professional
     center, including a hotline, to                    organizations.      These presentations are
     receive and process allegations of                 designed to heighten awareness of integrity
     fraud, waste or abuse; and                         and to provide a deterrent effect against fraud
• providing forensic examination of                     and abuse involving IRS programs and
     documentary evidence.                              operations. During this six-month period the
                                                        Office of Investigations conducted 409
                                                        presentations for 13,241 individuals.



                     Treasury Inspector General for Tax Administration
                                      March 31, 1999

                                                   23
                             Semiannual Report to the Congress


  Taxpayer Rights and Protection                                Threats and Assaults

The IRS Restructuring and Reform Act of                The Office of Investigations is committed to
1998 (RRA98) created new and important                 providing the highest priority in terms of
taxpayer rights and protections and also               responsiveness and investigative emphasis to
provided for mandatory termination of                  threats and assaults against IRS employees.
employment for certain acts or omissions by            To further ensure the safety of IRS employees
IRS employees. During this reporting period            and prevent violent situations from occurring,
all IRS employees received mandatory                   the Office of Investigations has developed an
training on the RRA98, Section 1203, conduct           employee protection program to identify
provisions.                                            individuals who may pose a threat to the
                                                       safety of IRS employees. During this six-
There were no terminations under Section
                                                       month period, the Office of Investigations
1203 during this reporting period.          See
                                                       completed      353    threat     and   assault
Appendix V for a summary of Section 1203
                                                       investigations.
standards. During this six-month reporting
period, TIGTA did not investigate any
allegations of unauthorized requests by the                              Bribery
IRS Oversight Board for return information
and/or contacts relating to specific taxpayers.
                                                       Bribery of IRS employees is a major concern
Between July 22, 1998 (the enactment date of           for the IRS. As a result of frequent contacts
RRA98) and March 31, 1999, TIGTA                       IRS employees have with taxpayers, their
initiated 47 investigations relating to alleged        positions and responsibilities make them
“1203” violations. Of these, 32 are currently          potential targets for bribery attempts. The
ongoing, and 15 have been closed and                   success of TIGTA’s bribery program is
referred to the IRS for administrative                 dependent upon quality referrals and the
adjudication.                                          cooperation of IRS employees. To enhance
In addition, TIGTA received 238 information            both of these aspects, TIGTA special agents
items that TIGTA provided to IRS managers              take every opportunity to develop solid
for actions as they deemed appropriate. These          relationships with employees. In addition,
information items are complaints or                    TIGTA special agents frequently provide
allegations where TIGTA determined that an             bribery awareness presentations to these
investigation was not warranted.                       employees. During this six-month reporting
                                                       period, the Office of Investigations completed
To receive complaints of wrongdoing by IRS             43 bribery investigations.       Examples are
employees, TIGTA also has established a toll-          located in the Significant Criminal and
free telephone number and has published this           Administrative Investigations section of this
telephone number in IRS Publication 1 (Your            report.
Rights as a Taxpayer) which is provided to
taxpayers who are likely to have direct
contact with IRS employees. TIGTA also                   Forensic and Technical Services
established a national complaint center to
receive and process allegations of fraud,              Criminal investigations often depend upon the
waste, abuse and other forms of wrongdoing.            forensic analysis of evidence. Fingerprint and




                    Treasury Inspector General for Tax Administration
                                     March 31, 1999

                                                  24
                              Semiannual Report to the Congress

handwriting technology, photography, and              TIGTA also conducts forensic computer
chemical analysis are just a few of the               analysis of seized computers for evidentiary
laboratory tools that assist TIGTA special            purposes. Computer technology has rapidly
agents in identifying subjects.                       become a tool for criminal activity, used in
                                                      frauds      against    businesses,  financial
The TIGTA Forensic Science Laboratory
                                                      institutions and the IRS.
(FSL) supports field investigations through
timely processing of documentary, physical,           The Technical Services Section provides
and chemical evidence. As the FSL moves               expertise to TIGTA special agents in the use
toward accreditation and expanded service to          of technical and electronic investigative
field agents, additional personnel are being          equipment, including on-site assistance during
hired. During this six-month period, the FSL          investigations.
received 79 case submissions, issued 63
reports of laboratory examination, and
evaluated over 2,400 items of physical                SIGNIFICANT CRIMINAL
evidence.                                             AND ADMINISTRATIVE
                                                      INVESTIGATIONS
During this reporting period the FSL
evaluated the broad array of physical evidence
encountered by TIGTA special agents. Some             The following are brief synopses of some of
examples of the more significant laboratory           the significant investigations conducted by
examinations conducted during this reporting          TIGTA special agents during this reporting
period include:                                       period.
•   handwriting and latent print
    examinations of stolen remittance                     Assault/Threat Investigations
    checks, totaling $35,718, resulted
    in eliminating suspicion of a
    suspect;                                          Three Individuals Involved In
                                                      Threats To Kill High Level
•   handwriting examinations on                       Government Officials, Including IRS
    collection closing documents                      Employees
    totaling over $222,000, resulted in
    an IRS revenue officer being
    identified as the author of eight of              On July 1, 1998, as part of a multi-agency
    the nine signatures, despite his                  task force, TIGTA special agents participated
    denials to the contrary;                          in the arrest of three individuals who were
                                                      members of a separatist group and charged
•   preserving     and     significantly              them with terrorism and use of weapons of
    improving readability of facsimile                mass destruction. During a jury trial, two
    copies related to an IRS contract                 subjects were found guilty; the third subject
    fraud investigation; and,                         was found not guilty. On February 5, 1999,
•   handwriting examinations of                       the guilty subjects were each sentenced to 24
    letters sent to a news publisher                  years imprisonment and 5 years-supervised
    describing threats to kill IRS                    release.
    agents and Federal judges. A                      The individuals had sent threatening e-mail to
    suspect was identified as the                     the President, the IRS Commissioner, and
    author of these letters.                          other high level Government officials. The e-
                                                      mail stated that IRS employees and their


                     Treasury Inspector General for Tax Administration
                                      March 31, 1999

                                                 25
                              Semiannual Report to the Congress

families were targeted for destruction through          charges. Trials are pending for the other five
the use of non-traceable, personal delivery             subjects.
systems, which would inject bacteria and/or
viruses for the purpose of killing and causing          Former IRS Employee Found Guilty
great suffering.                                        of Accepting Bribes
One of the subjects, an alleged chemist,
purchased the materials needed to make the              On December 21, 1998, a former IRS
device and talked about making or obtaining             employee was found guilty of accepting
botulism, HIV, anthrax, or rabies to be used            bribes from a taxpayer. The taxpayer was
as the infectious disease/toxin in the delivery         also found guilty and sentenced on August 26,
device.                                                 1998, for his guilty plea to bribery and
                                                        conspiracy. In a separate civil settlement
Individual Threatens to Use                             agreement entered into between the IRS and
Explosive Devices on IRS Building                       the taxpayer, it was agreed that more than
                                                        $5 million in taxes and penalties would be
                                                        paid to the IRS by the convicted taxpayer.
An individual entered a plea of guilty to
possession of an explosive device, which was            When confronted by TIGTA special agents,
to be used to burn an IRS District office.              an IRS employee confessed that he received a
TIGTA special agents acted as members of a              total of $150,000 and ten automobiles from a
task force in the investigation of the suspect,         taxpayer, whose corporations’ assets totaled
who was allegedly a member of a militia                 over $225 million. The total value of the
group. The subject told an informant that they          bribe, including the automobiles, amounted to
should burn the local IRS District office.              approximately $175,000. In addition, while
Based upon the threat against IRS property              the IRS employee was cooperating with
and the potential for the loss of life, the task        TIGTA special agents, the taxpayer offered
force acted quickly to effect the arrest of the         him another $150,000 to fraudulently dispose
suspect.                                                of other IRS audits involving several of his
                                                        related companies.
                                                        The revenue agent subsequently cooperated
         Bribery Investigations                         with the TIGTA special agents and admitted
                                                        to accepting an additional $67,500 in bribes
Two Co-Conspirators Enter a Plea                        and numerous gifts during his 30-year career
of Guilty in Bribery Case                               with the IRS. He also provided information
                                                        relative to corruption within the IRS district
After attending a TIGTA Bribery Awareness               by identifying other revenue agents and
Presentation, an IRS revenue agent reported a           managers who were involved in corrupt
bribe overture by a taxpayer purported to be            dealings during this time frame.
involved in an illegal drug trafficking ring.
During a subsequent meeting, the taxpayer
                                                        Two Former IRS Employees
gave the revenue agent $1,000 to eliminate a
$70,000 tax liability. Subsequently, six other          Sentenced for Preparing and Filing
members of the drug ring also offered bribes            Fraudulent Tax Returns
to the revenue agent.                                   On January 20, 1999, two former IRS
On November 5, 1998, TIGTA special agents               employees were found guilty of bribery and
arrested all seven subjects. Two of the                 conspiracy.    One of the employees was
subjects entered a plea of guilty to the                sentenced to 21 months incarceration, three
                                                        years probation, and ordered to pay $279,313

                     Treasury Inspector General for Tax Administration
                                      March 31, 1999

                                                   26
                              Semiannual Report to the Congress

in restitution. The second employee received             attorney a “revised” audit report that indicated
one-year incarceration, three years probation            he and his wife owed $161,000 in taxes,
and ordered to pay $72,785 in restitution.               interest, and penalties for 1995 and 1996, a
                                                         reduction of around $105,000.
The TIGTA investigations determined that the
two employees conspired with numerous                    In a second meeting, the attorney met with the
individuals to prepare and file fraudulent               IRS employee and gave him an envelope that
Federal income tax returns and IRS audit                 contained the “revised” audit report signed by
reports in a scheme to generate fraudulent tax           him and his wife, a check for the amount
refunds or to eliminate existing tax liabilities.        shown on the audit report, and $15,000 cash.
Also, the employees took steps to prevent the            TIGTA special agents arrested the IRS
fraudulent tax returns from being audited.               employee at the end of the meeting.
Both employees often demanded and received
bribes of up to one-half of each fraudulent
refund. The potential loss to the government                Disclosure/Improper Computer
in this scheme was estimated at $500,000.                       Access Investigations

Taxpayer Sentenced for Bribing an                        IRS Employee Sentenced for
IRS Employee                                             Bribery and Unauthorized
On October 30, 1998, a taxpayer, who                     Disclosure of Tax Information
admitted paying an IRS employee in
exchange for having fraudulent refunds                   On January 25, 1999, the first IRS employee
generated to him by the IRS employee, was                indicted for violating the Taxpayer Browsing
sentenced to four months incarceration, four             Protection Act was convicted of bribery,
months home detention and three years                    unauthorized disclosure of tax return
supervised probation. The taxpayer was also
                                                         information and unauthorized inspection of
ordered to make restitution to the IRS in the            tax returns. The employee was sentenced to
amount of $16,887. This investigation was                imprisonment and supervised probation.
the     result     of   a     joint    TIGTA
Audit/Investigations Integrity Project, which            The investigation resulted from information
was referred to the Office of Investigations             received by TIGTA from an agent
for investigation.                                       investigating an ongoing fraud scheme
                                                         involving an individual who was using the
IRS Employee Pleads Guilty to                            identities of others to obtain fraudulent loans
Bribery and Preparing a False                            and credit cards. An informant revealed that
                                                         the subject had obtained this information from
Report
                                                         an IRS employee. The subject subsequently
On November 30, 1998, an IRS employee                    entered into a plea agreement with the U.S.
entered a plea of guilty to bribery and                  Attorney’s office and offered to cooperate
preparing a false report. The employee also              with TIGTA regarding the IRS employee’s
resigned from his IRS position. TIGTA                    involvement in the scheme.
initiated the investigation after an attorney            The fraudulent scheme resulted in the
reported that an IRS employee had offered to             processing of 13 loan and credit card
reduce his tax liability by $100,000 for a               applications using the names and Social
$25,000 fee.                                             Security Numbers of nine individuals, and a
During a meeting between the IRS employee                loss of over $238,000 to five financial
and the attorney, the IRS employee gave the              institutions.

                     Treasury Inspector General for Tax Administration
                                      March 31, 1999

                                                    27
                             Semiannual Report to the Congress


IRS Employee Sentenced for                             As a result of the undercover operation, three
Disclosing Confidential Information                    IRS employees were identified as having sold
                                                       twelve stolen taxpayer remittances valued at
                                                       approximately $685,000 to the undercover
On January 12, 1999, an IRS employee was               operative. Action relative to the other IRS
sentenced to thirty days incarceration, five           employees is pending.
years probation, and fined $5,000 for
disclosing confidential tax information to a
third party. This investigation was initiated          Two Individuals Sentenced for
after a taxpayer reported to TIGTA that she            Embezzlement
was contacted by a third party and accused of          As a result of a proactive initiative by TIGTA
using the third party’s child as a dependent on        to detect thefts of taxpayer remittances sent to
her Federal tax returns. The third party               contract lockbox facilities, two individuals
allegedly demanded $500 or she would report            were identified as being involved in a
the taxpayer to the IRS. The third party               conspiracy to steal approximately $17,000 in
claimed that the friend who gave her this              such remittances.
information worked for the IRS.
                                                       As a result of the TIGTA investigations, both
After TIGTA special agents confronted the              individuals entered a plea of guilty to one
employee with the evidence, the employee               count of conspiracy relating to these thefts,
admitted accessing the taxpayer’s account and          with one being sentenced to four months in
disclosing the information to the third party.         prison and three years probation, and the
The employee also admitted to providing                second, three years probation.
TIGTA special agents with a false affidavit
and providing false information during an              Both individuals were also ordered to make
official investigation.                                restitution of $6,000.


                                                         False Statements Investigations
Theft/Embezzlement Investigations
                                                       IRS Employee Pleads Guilty To
IRS Employee Pleads Guilty to                          Making False Statements During
Theft of IRS Tax Remittances                           IRS Audit

On October 8, 1998, an IRS employee entered            On January 11, 1999, an IRS employee
a plea of guilty to the theft of IRS tax               entered a plea of guilty to false statements,
remittances. The IRS employee sold four tax            relating to statements she made, and altered
remittance checks, totaling $455,483, which            documents she submitted, during an audit of
the IRS employee had stolen, to an                     her U.S. Individual Income Tax Return. The
undercover operative. One of the four stolen           audit resulted in adjustments of $24,565 and
tax remittance checks was for $442,000.                additional taxes in the amount of $12,032.
An IRS service center and an IRS lockbox site          Prior to being confronted by TIGTA special
were also experiencing a rash of stolen                agents about her actions, the IRS employee
checks. In an effort to identify those service         filed a petition in U.S. Tax Court, contesting
center employees who were stealing checks, a           the proposed IRS assessment. The IRS
TIGTA undercover investigation was                     employee resigned after she became aware of
initiated.                                             the pending criminal investigation.



                    Treasury Inspector General for Tax Administration
                                     March 31, 1999

                                                  28
                             Semiannual Report to the Congress


IRS Employee Resigns After                            equipment installed” and that the federal
Making False Statements to                            government would pay for the automobile
Supervisors                                           later.  The individual also attempted to
                                                      purchase five “police package” vehicles, at
On November 1, 1998, an IRS criminal                  the government price, from an out-of-state
investigator resigned her position after a            automobile dealership.
TIGTA investigation determined that she
misused a government owned vehicle and                Taxpayer Sentenced to 40 Months
provided false statements to her supervisors.
                                                      Incarceration for Impersonating an
The IRS criminal investigator reported to
TIGTA that a taxpayer had threatened her              IRS Employee
relative to her position as a federal law
enforcement officer.                                  On October 21, 1998, a taxpayer entered a
The TIGTA investigation disclosed that the            plea of guilty to impersonation and credit card
IRS criminal investigator was involved in a           fraud and was sentenced to 40 months
                                                      incarceration. The individual, who worked at
domestic dispute with another individual.
The IRS criminal investigator, accompanied            an auto parts store, used his position to steal
by her husband, whom she had “deputized as            credit information from customers who
                                                      charged their purchases with a credit card.
a federal agent,” used her assigned IRS
                                                      The individual would then call the customer
enforcement vehicle to confront the
individual. Information was received from a           at home and pose as an IRS official to get
                                                      additional     biographical   and     financial
local police officer that the information the
                                                      information.      Through this scheme, the
IRS criminal investigator had provided to her
supervisor relative to the incident was in            individual was able to charge more than
conflict with the facts and circumstances             $180,000 to the victims’ accounts.
regarding the alleged threat.
                                                                Other Investigations
    Impersonation Investigations
                                                      Improper Use of Enforcement
Individual Sentenced for                              Statistics by IRS Personnel
Impersonating a Treasury Agent
                                                      Based on referrals from the Office of Audit,
                                                      TIGTA initiated 167 investigations of alleged
On January 29, 1999, an individual was
                                                      improper use of enforcement statistics by
sentenced to two months incarceration and six
months probation for impersonating a                  personnel in the IRS Collection function.
Treasury agent. TIGTA received information            Such activities, if proven, would be in
                                                      violation of provisions of the Taxpayer Bill of
that an individual, identifying himself as a
                                                      Rights.
Treasury employee by using a blue and gold
Treasury badge and other government                   Of these investigations, 158 (including
identification, attempted to purchase a law           13 special project investigations and
enforcement vehicle purportedly for the               145 investigations on individual IRS
Treasury Department.                                  employees), were referred to a special IRS
The individual tried to take possession of the        adjudicative panel. Four cases are pending
                                                      prosecutive consideration. The remainder
vehicle, advising he needed to get
                                                      were closed as preliminary inquiries because
“communications and law enforcement
                                                      records reviews disproved the alleged

                    Treasury Inspector General for Tax Administration
                                     March 31, 1999

                                                 29
                             Semiannual Report to the Congress

questionable actions.      Twelve senior               Abuse of this process can adversely affect the
managers and National Office Collection                administration of our nation’s tax system.
employees received reprimands as a result of
the investigations.                                    Individual Pleads Guilty to Mail
The adjudicative panel has to date reported 80         Fraud
administrative actions on IRS field level
                                                       On January 12, 1999, an individual entered a
personnel which included 8 reprimands and/or
                                                       guilty plea to conspiracy to commit mail
admonishments. The remainder were closed
                                                       fraud. Sentencing is pending. Based on
without action.
                                                       information developed in a previous
                                                       investigation, TIGTA special agents identified
Scheme Involving Misuse of EINs                        this individual who conspired with others in a
                                                       mail fraud scheme to defraud restaurant
Through a proactive initiative, TIGTA                  owners.
uncovered a scheme involving individuals               The mail fraud scheme involved the mailing
who misused IRS issued Employer                        of hundreds of fraudulent IRS forms to
Identification Numbers (EINs) as Social                owners of various restaurants requesting
Security Numbers (SSNs) on applications for            money purportedly owed to the IRS. As a
credit to create new credit identifiers and            result of search warrants, TIGTA determined
defraud creditors.                                     the individuals involved in this scheme
Unfortunately, knowledge of this scheme has            planned to mail over 2,000 of these fraudulent
become widespread throughout the country               IRS forms to various ethnic restaurant owners
through newspaper advertisements and the               throughout the United States.
use of the Internet. Working with the Federal
Trade Commission (FTC), the Better Business            IRS Employee Receives 30-Day
Bureau, and the State Attorney General                 Suspension For Violating IRS
offices, TIGTA developed valuable leads on             Employee Rule Of Conduct,
individuals who continue to promote this               Purchase Of Government Property
illegal scheme.
                                                       On October 21, 1998, an IRS employee was
TIGTA also participated with the FTC in                suspended for 30 days for violating IRS
providing presentations on the EIN scheme to           Employee Rules of Conduct, section 233,
other law enforcement agencies and U.S.                relating to her husband’s “business purchase”
Attorney’s offices.      Additionally, TIGTA           of government property at an IRS Collection
participated in national news conferences with         seizure sale.
the FTC to heighten the public’s awareness
and knowledge of the scheme.                           In her official IRS capacity, the employee
                                                       maintained an IRS Collection seizure sale
Suspects used this scheme to purchase various          mailing list that contained the address of her
items, including furniture, automobiles and            husband’s automobile towing company.
houses. In one case, an individual used this
scheme to obtain a $300,000 home mortgage.             The IRS employee’s husband attended the
This individual was subsequently prosecuted.           official IRS seizure sale and purchased a
                                                       Chevrolet Corvette.       The IRS employee
The EIN issuance process was created to                recorded the IRS sale documents and
ensure that taxpayers/businesses had a unique          personally identified all bidders. However,
number enabling them to file their tax returns,        she failed to notify the senior revenue officer
which enhances future compliance efforts.              that her husband was a registered bidder.

                    Treasury Inspector General for Tax Administration
                                     March 31, 1999

                                                  30
                             Semiannual Report to the Congress



            Treasury Inspector General for Tax Administration
                       National Integrity Program


INTRODUCTION                                            Proactive Detection of Employee
                                                                     Fraud
The National Integrity Program supplements
the TIGTA's Audit and Investigation activities        The detection segment is focused on
and focuses on deterring and detecting                proactively evaluating actual instances of
material fraud in IRS programs and                    proven (adjudicated) employee criminal
operations. Strong emphasis is directed at            activity by building a computer "crime
assisting IRS executives and management               profile" of the transactions and patterns that
officials in maintaining a high degree of             were used to commit the crime, and computer
employee honesty and integrity.                       matching that profile against massive volumes
                                                      of taxpayer account transactions to identify
The program is based on identification and            additional potential violators.
matching of criteria developed from prior
fraudulent activity found during audits and           These proactive national integrity projects are
investigations.                                       included in Computer Matching Act
                                                      agreements approved by the Treasury
                                                      Department's Data Integrity Board and
Integrity Deterrence Presentations                    advertised in the Federal Register.
 To IRS Executives and Managers                       Internal control weaknesses are reported by
                                                      the Office of Audit to IRS management, along
The deterrence segment is focused around              with recommendations for correcting the
development of top quality integrity                  deficiencies.
awareness presentations for sharing by high
level Audit and Investigation officials with
IRS executives and managers.             The             Establishment of Central Case
presentations focus on both ethics and                       Development Center
integrity and include examples of weak
internal controls and the resulting employee
fraud that occurred.                                  The Centralized Case Development Center
                                                      (CCDC) was established when IRS was
The goal of the presentations is to foster an         directed by the Treasury Department to
understanding by IRS executives and                   transfer from IRS operations management the
managers (owners of the internal control              responsibility to detect and investigate
systems) of the importance of established             unauthorized accesses to taxpayer accounts
safeguards over assets and revenue, to both           (UNAX). This transfer of responsibility was
protect the Government from losses and                based on a new law, the Taxpayer Browsing
employees from temptations.                           Protection Act, effective August 5, 1997.




                    Treasury Inspector General for Tax Administration
                                     March 31, 1999

                                                 31
                             Semiannual Report to the Congress

This law makes it a criminal offense for IRS           also terminated from employment for the
employees, other federal employees, state              improper accesses.
employees, and contractors, to willfully
                                                       The TIGTA investigation disclosed that the
inspect or disclose federal tax returns or
return information without proper approval.            IRS employee made over 1,000 improper
                                                       accesses to the Integrated Data Retrieval
The program is an intense, collaborative effort        System (IDRS) accounts of 13 taxpayers,
among Audit, Investigations and Information            including his girlfriend and her estranged
Technology functions, and has yielded                  husband.
significant results in terms of identifying and
                                                       This case had a significant impact on the IRS
investigating fraudulent activities and
                                                       both internally and externally. Extensive
reporting weaknesses in systems and controls
to the Commissioner of the IRS. CCDC also              publicity regarding the case sent a strong and
                                                       important message to IRS employees and to
executes an aggressive integrity program to
                                                       the public that this type of improper activity
detect fraud and abuse in IRS computer
systems and operations and to detect and               by IRS employees is illegal and will not be
investigate unauthorized accesses to taxpayer          tolerated by the IRS and/or the United States
                                                       Government.
records by IRS employees.
The two principal components of CCDC’s                 IRS Employee Enters a Plea of
operation are: (1) the National Integrity              Guilty to Making Improper
Projects; and, (2) the UNAX Detection
                                                       Accesses of Taxpayer Accounts
Program.

                                                       On February 1, 1999, a former IRS employee
NATIONAL INTEGRITY PROJECTS                            entered into a one-year pre-trial diversion
                                                       agreement with the U.S. Attorney’s Office by
Proactive integrity projects are a key part of         pleading guilty to computer fraud. Based on
this program. Projects are initiated from              information received through a TIGTA
information developed during a successful              integrity initiative it was determined that the
investigation. The methodology of that crime           IRS employee made 506 unauthorized
becomes the basis for development of                   accesses to 24 friends’ and relatives’ accounts
computer database applications that will               utilizing IDRS during a 5-year period. The
identify other individuals who may be                  employee resigned during the investigation.
perpetrating the same crime. Developed
applications      successfully      identifying
additional suspects are then duplicated                UNAX DETECTION PROGRAM
nationwide.
                                                       In March 1998, CCDC developed an
    Significant National Integrity                     electronic audit trail analysis application to
            Project Cases                              detect potential unauthorized accesses to
                                                       taxpayer records on IRS systems and began
IRS Employee Indicted for Improper                     making criminal investigative referrals to
Computer Access and Disclosure                         Investigations offices.

On October 27, 1998, a ten-year IRS                    CCDC also established the detection and
employee was indicted for improper computer            programming requirements for IRS to develop
access and disclosure. The IRS employee was            the Audit Trail Lead Analysis System
                                                       (ATLAS).    ATLAS is a new national,

                    Treasury Inspector General for Tax Administration
                                     March 31, 1999

                                                  32
                            Semiannual Report to the Congress

centralized UNAX lead identification system          Crimes and Taxpayer Browsing Protection
designed to replace the antiquated IRS               Acts.
Electronic Audit Research Log (EARL), that
was previously dispersed among the 10 IRS            Of the 76 referrals, nine investigations have
service centers.                                     been completed as follows:
The UNAX detection program has yielded
                                                     •   two are pending Criminal and
significant results since assumption of the
                                                         Administrative actions;
program in 1997. Since that time over 6,000
leads of potential unauthorized access to tax        •   six are pending Administrative
information by IRS employees have been                   action; and,
identified through the computer-based
detection program (EARL/ATLAS) or UNAX               •   one has Administrative action
referrals from TIGTA special agents.                     completed, with a suspension
                                                         from duty as the penalty.
Analysis of these leads by CCDC analysts has
resulted in 76 referrals during the six-month
reporting period to Investigations’ field            The remaining 67 investigations are pending
offices for UNAX violations of the Computer          completion of field work.




                   Treasury Inspector General for Tax Administration
                                    March 31, 1999

                                                33
                                    Semiannual Report to the Congress


                                                                                                Appendix I
                                                                                  Statistical Report Tables

Audit Reports With Questioned Costs

One audit report with questioned costs was issued during this semiannual reporting period.
The term “questioned cost” means a cost that is questioned because of (1) an alleged violation of
a provision of a law, regulation, contract, or other requirement governing the expenditure of
funds; (2) a finding that, at the time of the audit, such cost is not supported by adequate
documentation (“unsupported cost”); or (3) a finding that expenditure of funds for the intended
purpose is unnecessary or unreasonable. The term “disallowed cost” means a questioned cost that
management, in a management decision, has sustained or agreed should not be charged to the
Government.


Audit Reports w/Questioned Costs
       (10/01/98 – 03/31/99)                                        Questioned Costs1     Unsupported Costs
                                                              2
Report Category:                                   Number            (In Thousands)        (In Thousands)
1.     For which no management decision had             0                             0                     0
       been made by the beginning of the
       reporting period.

2.     Which were issued during the reporting           1                        $490                       0
       period.
3.     Subtotals (Item 1 plus Item 2)                   1                        $490                       0
4.     For which a management decision was              1                        $490                       0
       made during the reporting period.
       -    dollar value of disallowed costs            1                        $490                       0
       -    dollar value of costs not disallowed        0                             0                     0

5.     For which no management decision has             0                             0                     0
       been made by the end of the reporting
       period (Item 3 minus Item 4)


6.     For which no management decision was             0                             0                     0
       made within six months of report
       issuance.

1
    “Questioned Costs” includes “Unsupported Costs”
2
    See Appendix IV for identification of Audit Reports involved.




                         Treasury Inspector General for Tax Administration
                                                   March 31, 1999
                                                            A-I-1
                                    Semiannual Report to the Congress


                                                                                                 Appendix I
                                                                                   Statistical Report Tables

Audit Reports With Recommendations That Funds Be Put To Better Use


Four reports with recommendations that funds be put to better use were issued during this
semiannual reporting period. The term “recommendation that funds be put to better use” means a
recommendation that funds could be used more efficiently if management took actions to
implement and complete the recommendation, including (1) reductions in outlays; (2)
deobligations of funds from programs or operations; (3) costs not incurred by implementing
recommended improvements related to operations; (4) avoidance of unnecessary expenditures
noted in pre-award reviews of contract agreements; or (5) any other savings which are
specifically identified. The term “management decision” means the evaluation by management
of the findings and recommendations included in an audit report and the issuance of a final
decision concerning its response to such findings and recommendations, including actions
concluded to be necessary.

       Reports w/Recommendations That Funds Be Put to Better Use
                         (10/01/98 – 3/31/99)                                                       Amount
                                                                               Number2          (In Thousands)
    Report Category
    1.   For which no management decision has been made by the                     0                             0
         commencement of the reporting period.
    2.   Which were issued during the reporting period.                            4                     $22,0271

    3.   Subtotals (Item 1 plus Item 2)                                            4                      $22,027
    4.   For which a management decision was made during the reporting             4                      $22,027
         period.
        Dollar value of recommendations that were agreed to by
         management
         -    Based on proposed management action                                  4                      $22,027
         -    Based on proposed legislative action                                 0                            0
        Dollar value of recommendations that were not agreed to by                0                            0
         management

    5.   For which no management decision has been made by the end of the          0                             0
         reporting period. (Item 3 minus Item 4)

    6.   For which no management decision was made within six months of            0                             0
         issuance.


1
  $505,000 of the total was not included in a corresponding audit report; however, based on our recommendation, this
is the amount of the 15 Full Time Equivalent (FTEs) put to better use by terminating the program. Management
agreed with the recommendation. In an additional audit report, $18 million in dollar value was calculated using
average costs to process Forms 941 as determined by IRS. Actual costs may be lower due to anticipated decrease in
amount of processing time for more simple returns associated with the recommendation. Additional costs of
alternative processing of these taxpayer accounts is unknown and therefore not factored in this amount. Average
processing costs and total number of taxpayer accounts was disclosed in the audit report, but the dollar value was not
specifically included.
2
    See Appendix IV for identification of Audit Reports involved.



                         Treasury Inspector General for Tax Administration
                                                   March 31, 1999
                                                          A-I-2
                            Semiannual Report to the Congress


                                                                                   Appendix I
                                                                     Statistical Report Tables

Audit Reports With Additional Quantifiable Impact on Tax Administration

In addition to questioned costs and funds put to better use, the Office of Audit has identified
additional measures that demonstrate the value of audit recommendations on tax administration
and business operations. These issues are of interest to IRS and Treasury executives, the
Congress, and the taxpaying public, and should be expressed when possible in quantifiable terms
to provide further insights to the value and potential impact of the Office of Audit’s products and
services. Including this information also advances adherence to the intent and spirit of the
Government Performance and Results Act (GPRA).
Definitions of these additional measures are:
    1. Taxpayer Rights and Entitlements at Risk: The protection of due
       process (rights) that is granted to taxpayers by law, regulation, or IRS
       policies and procedures. These rights most commonly arise in the
       performance of filing tax returns, paying delinquent taxes, and examining
       the accuracy of tax liabilities. The acceptance of claims for and issuance of
       refunds (entitlements) are also included in this category, relating to
       instances when taxpayers have a legitimate assertion to overpayments of
       tax.
    2. Reduction of Burden on Taxpayers: Decreases by individuals or
       businesses in the need for, frequency of, or time spent on contacts, record
       keeping, preparation, or costs to comply with tax laws, regulations, and IRS
       policies and procedures.
    3. Increased Revenue or Revenue Protected: Assessment or collection of
       additional taxes (increased revenue), or proper denial of claims for refund,
       including recommendations that prevent erroneous refunds or efforts to
       defraud the tax system (revenue protection).
    4. Protection of Resources: Safeguarding human and capital assets, used by
       or in the custody of the organization, from inadvertent or malicious injury,
       theft, destruction, loss, misuse, overpayment, or degradation. This measure
       will often be expressed as a value of the entity or program affected by the
       issue(s) described in the audit report.
    5. Reliability of Management Information: Ensuring the accuracy, validity,
       relevance, and integrity of data, including the sources of data and the
       applications and processing thereof, used by the organization to plan,
       monitor, and report on its financial and operational activities. This measure
       will often be expressed as an absolute value (i.e., without regard to whether
       a number is positive or negative) of overstatements or understatements of
       amounts recorded on the organization’s documents or systems.




                   Treasury Inspector General for Tax Administration
                                        March 31, 1999
                                                A-I-3
                                   Semiannual Report to the Congress


                                                                                            Appendix I
                                                                              Statistical Report Tables

Audit Reports With Additional Quantifiable Impact on Tax Administration

The number of taxpayer accounts, hours, and dollar values shown in this chart were derived from
analyses of historical data, and are thus considered potential barometers of the impact of audit
recommendations. Actual results will vary depending on the timing and extent of management’s
implementation of the corresponding corrective actions, and the number of accounts or
subsequent business activities applicable from the dates of implementation. Also, a report may
have issues that impact more than one outcome measure category.


Reports With Additional Quantifiable          Number
   Impact on Tax Administration                 of
        (10/01/98 – 3/31/99)                  Reports        Number of
                                                in           Taxpayer         Number of        Dollar Value
Outcome Measure Category                     Category5       Accounts          Hours         (In Thousands)
1.     Taxpayer Rights and Entitlements at       1                 9,125
       Risk
2.     Reduction of Burden on Taxpayers         2                9,053,0001     5,800,0002


3.     Increased Revenue or Revenue             2                                                  $57,2003
       Protected
4.     Protection of Resources                  1                                                     $706


5.     Reliability of Management                1                                                  $20,2004
       Information



Explanatory Notes
1
  53,000 pertained to erroneous notices scheduled for issuance due to misapplied payments to 1995 and/or
1996 taxpayers’ accounts. An unknown number of these notices may not have been received by taxpayers
due to subsequent IRS efforts or undeliverable mail.
2
  The number of taxpayer accounts associated with the recommendation (9,000,000) was disclosed in the
audit report, but the hours of burden were not specifically included. The hours were calculated using the
IRS standard for preparing and filing Schedule B of Form 1040.
3
  $54 million of the total represents the amount of refunds that were erroneously scheduled for issuance
due to a processing control weakness that affected the taxpayers’ 1995 and/or 1996 accounts. An unknown
number of these refunds may not have been received by the taxpayers due to subsequent IRS controls or
undeliverable mail, and an additional unknown portion of this amount most likely would have been or will
be recovered through subsequent IRS or taxpayer efforts.
4
 Dollar value represents overstatements of benefits from a new system, which may result in corresponding
understatements of budget for processing returns and remittances in Fiscal Years 1999 and 2000
5
     See Appendix IV for identification of Audit Reports involved.



                        Treasury Inspector General for Tax Administration
                                                March 31, 1999
                                                         A-I-4
                               Semiannual Report to the Congress


                                                                                Appendix II
                                                                   Statistical Report Tables

                                       Investigative Results




                                Investigations Opened and Closed

Total Cases Opened                                                                     1,464


Total Cases Closed                                                                     1,297




                                    Financial Accomplishments

Bribe Payments (Seized/Recovered)                                                   $317,524


Embezzlement/Theft Funds (Recovered)                                                 $28,855


Fines Ordered by Court                                                            $5,255,820


Restitution Ordered by Court                                                      $6,782,748




                      Treasury Inspector General for Tax Administration
                                          March 31, 1999
                                               A-II-1
                                 Semiannual Report to the Congress


                                                                                            Appendix II
                                                                               Statistical Report Tables



                               Status of Closed Criminal Investigations
                                  October 1, 1998 – March 31, 1999


                                                    Employee            Non-Employee           TOTAL 1
                                                     Subject               Subject
Referred – Accepted for Prosecution                              26                 101                    127

Referred – Declined for Prosecution                             145                 217                    362

No Referral 2                                                   343                 408                    751

Referred - Pending Prosecution Decision                          26                    71                      97




                                          Criminal Dispositions 3
                                      October 1, 1998 – March 31, 1999


                                                     Employee           Non-Employee           TOTAL 1
                                                      Subject              Subject
Guilty                                                          23                 149                     172

Nolo-Contendere                                                  0                  12                         12

Pre-Trial Diversion                                              4                  40                         44

Not Guilty                                                       1                     6                        7

Dismissed                                                        2                  12                         14


1
    The above statistics include both Federal and State dispositions.
2
    Includes investigations in which the allegation was disproved and/or insufficient evidence was obtained.
3
  Due to the time involved in criminal adjudication, there is most often no correlation between the data
reflected as “Referred – Accepted for Prosecution” in Criminal Status and Criminal Disposition charts.




                        Treasury Inspector General for Tax Administration
                                               March 31, 1999
                                                     A-II-2
                               Semiannual Report to the Congress


                                                                                           Appendix II
                                                                              Statistical Report Tables

The following tables summarize the number of complaints received by TIGTA and various components within the IRS
and the status and dispositions of serious allegations against IRS employees. [IRC 7803 (d) (2) (A) (i – iv)]

                    Complaints/Allegations Received by TIGTA and IRS
                            October 1, 1998 – March 31, 1999

                                                    TIGTA                TIGTA                 TOTAL
                                                     Cases             Information
                                                                          Items
Number of Complaints Received by TIGTA                       1,464              1,160                   2,624
         Complaints Against IRS Employees                     574                 548                   1,122
         TIGTA Proactive Cases on IRS                         113                                         113
         Employees
         Complaints Against Non-Employees                     720                 612                   1,332
         Other Proactive TIGTA Initiatives                     57                                          57



                                                                                               TOTAL
                                        4
Number of Complaints Received by IRS

         Customer Feedback System (CFS) 5                                                               1,789
         Problem Resolution Program (PRP) 6                                                           119,567

         EEO Informal Complaints                                                                          314
         EEO Formal Complaints                                                                            395
         Other Employee Misconduct                                                                        340
TOTAL                                                                                                 122,405


4
  The IRS provided the counts of taxpayer complaints from three systems/methods: CFS; Automated Labor
and Employee Relations Tracking System (ALERTS); and, an inquiry sent to all District Directors and
Regional Chiefs who report to Regional Commissioners to determine whether there are local systems for
maintaining information on taxpayer complaints. The TIGTA Office of Investigations cannot validate the
counts provided by IRS; thus, there is no assurance that duplicate counts do not exist within the IRS
systems/methods or between the case counts reported by the IRS and the Office of Investigations. While
the IRS currently does not have a centralized system for gathering RRA98 required data (and is aware of
that), the TIGTA Office of Audit reported that the IRS is in the process of making significant changes to its
"complaint processing system" (including centralizing/integrating the process and validating information to
be reported to TIGTA). Through its mandatory audit process, the Office of Audit will continue to monitor the
development of the IRS' taxpayer complaint reports system.
5
  The CFS captures data on allegations of inappropriate behavior in the treatment of taxpayers, which may
include rudeness, overzealousness, excessive aggressiveness, discriminatory treatment and the like.
6
  The PRP database does not distinguish between complaints, inquiries, problems or issues. For instance,
some taxpayers may only wish to have a problem resolved or an inquiry responded to, rather than having a
“complaint” about an IRS process or system.

                     Treasury Inspector General for Tax Administration
                                              March 31, 1999
                                                   A-II-3
                                    Semiannual Report to the Congress


                                                                                                Appendix II
                                                                                   Statistical Report Tables




           Administrative Status and Dispositions on Closed TIGTA Investigations 7
                              October 1, 1998 – March 31, 1999


    Removed, Terminated, or Other                                                                                 39
    Suspended/Reduction in Grade                                                                                  42
    Oral or Written Reprimand/Admonishment                                                                        50
    Closed – No Action Taken                                                                                    118
    Clearance Letter Issued                                                                                       27
    TOTAL DISPOSITIONS                                                                                          276


    Employee Resigned Prior to Adjudication                                                                       30



7
  Cases which were referred and/or cases on which action was taken by the IRS during this reporting period.
Additionally, TIGTA referred 355 cases during this six-month period that remain pending administrative adjudication by
the IRS.




                          Treasury Inspector General for Tax Administration
                                                March 31, 1999
                                                       A-II-4
                               Semiannual Report to the Congress


                                                                                             Appendix III
                                                                                Statistical Report Tables

Audit Reports With Unimplemented Corrective Actions


The Inspector General Act requires identification of significant recommendations described in
previous semiannual reports on which corrective actions have not been completed. The following
list of such unimplemented recommendations are based on information in the Office of
Management Control automated tracking system, which is maintained by Treasury management
officials.

(F = Finding Number, R = Recommendation Number, P = Plan Number)

  Reference
  Number          Issued         Report Title and Recommendation Summary

   041403       January 1994     Review of the Nonresident Alien Information Documents

                                 F-1, R-2, P-1. Management should ensure that obvious noncompliance
                                 with applicable tax laws and regulations is identified during processing.


   061610       January 1996     IRS' Efforts in Monitoring Trust Fund Recovery Penalty Assessments Need
                                 Improvement

                                 F-2, R-3, P-1. IRS should automate the processing of adjustments
                                 resulting from payments or credits on related Trust Fund Recovery (TFR)
                                 accounts, as part of the Service’s modernization efforts.
                                 F-4, R-1, P-1. The Chief Financial Officer and Assistant Commissioner
                                 (Collection) need to define accounts receivable as it relates to Trust Fund
                                 Recovery assessments and management should make the necessary changes
                                 to ensure TFR assessments are accurately represented.

   060402       January 1996     Review of the Early Intervention Contact Processing

                                 F-2, R-1, P-2. Early Intervention should consider alternate methods to
                                 obtain the most current taxpayer locator information.


   064102        May 1996        Review of the Preparer Program

                                 F-1, R-1, P-1. Associate the preparer Taxpayer Identification Number
                                 (TIN) with each individual return in the audit stream.


   064008        June 1996       The Financial Accounting and Reporting of Collection's Seized Assets
                                 Could Be Improved

                                 F-2, R-1, P-3. Management should incorporate a systemic interface
                                 between the Automated Work Control System seizure module and the
                                 general ledger as part of Revenue Accounting Control System replacement.



                   Treasury Inspector General for Tax Administration
                                            March 31, 1999
                                                   A-III-1
                              Semiannual Report to the Congress


                                                                                            Appendix III
                                                                               Statistical Report Tables

Audit Reports With Unimplemented Corrective Actions

  Reference
  Number          Issued        Report Title and Recommendation Summary

   065002       July 1996       Review of the Validity of Assessments

                                F-1, R-1, P-1. The Service should review a sample of “No Change” and
                                abated Combined Annual Wage Reporting (CAWR) and Social Security
                                Administrative (SSA) Penalty cases after the processing season to evaluate
                                causes of unproductive cases and identify where additional program
                                improvements can be made.
                                F-1, R-3, P-1. The Service should continue pursuing the capability to
                                access SSA data via computer to enable quick, economical processing of
                                CAWR and SSA penalty cases.


   065503      August 1996      Review of The Employment Tax Nonfiler Program

                                F-2, R-1, P-1. When W-3 information is received from SSA, match the
                                employer identification number and name control to those on the business
                                master file (BMF).
                                F-2, R-2, P-1. When the Service Center Unpostable function cannot
                                perfect an Employer Identification Number (EIN) name from Form W-3,
                                initiate Collection contact with the employer to secure any delinquent
                                returns rather than terminating processing of those Form W-3 with
                                unperfected EINs.
                                F-2, R-3, P-1. Establish a Form W-2/BMF cross-check of EINs that
                                appear on Forms W-2 attached to electronically filed Forms 1040.


   066401     September 1996    Follow-up Review of Information Security Over Small Scale Computer
                                Systems

                                F-1, R-1, P-24. Require Regional Commissioners to conduct another self-
                                assessment and certification of systems, to be followed by a validation.
                                F-1, R-2, P-2. Include in the upcoming FY 97 Business Master Plan,
                                quantifiable measures for achieving computer security.
                                F-1, R-3, P-9. Develop a plan, to be endorsed by the Senior Council for
                                Management Control, that will budget for the costs identified, including the
                                purchase of hardware or software packages that can provide adequate
                                security, to correct the conditions within two years.


   071404     February 1997     Productivity of the Underreporter Program

                                F-1, R-1, P-1. A Gross Assessment Method should be used to calculate the
                                Underreporter Program productivity.




                  Treasury Inspector General for Tax Administration
                                           March 31, 1999
                                                 A-III-2
                           Semiannual Report to the Congress


                                                                                         Appendix III
                                                                            Statistical Report Tables

Audit Reports With Unimplemented Corrective Actions

  Reference
  Number        Issued       Report Title and Recommendation Summary

                             F-2, R-1, P-1. A Gross Assessment Method should be used to calculate
                             yield to cost ratios, determine productivity rankings, and select inventory
                             for the Underreporter Program.
                             F-3, R-1, P-1. Actual site costs should be used when calculating
                             productivity to increase the accuracy of productivity rankings and obtain a
                             more precise measurement of efficiency.


   071304     March 1997     Quality of Information Document Processing

                             F-1, R-1, P-3, P-4. Review IRS reports (Martinsburg Computing Center
                             Report 405-02-12) to determine whether large variances exist between
                             processing years in the volume and dollars of information documents.


   072002     March 1997     Review of National Office Examination Planning

                             F-2, R-1, P-2. Examination should request that an indicator be used in the
                             Audit Information Management System database which would identify
                             when Midwest Automated Compliance System was used to assist in case
                             selection.


   072208     April 1997     Review of Service Efforts to Ensure Compliance of Taxpayers Receiving
                             Foreign Sourced Income

                             F-1, R-1, P-1, P-2. The Assistant Commissioner (International) should
                             work in coordination with the Executive Officer for Customer Service to
                             measure the overall impact of Foreign Information Returns Program (FIRP)
                             documents and the role FIRP should pay in relation to overall compliance
                             efforts.
                             F-2, R-1, P-1. The Service should commit to the development of a system
                             to process foreign information records received magnetically in the
                             standard Organization for Economic Cooperation and Development format.
                             F-2, R-4, P-1, P-2, P-3. The Assistant Commissioner (International)
                             should coordinate efforts with the Executive Officer for Customer Service
                             and the National Director, Submission Processing to ensure that late filed
                             and prior year FIRP documents are processed and available for inclusion in
                             the Information Returns Program initiative, when it becomes operational.




                Treasury Inspector General for Tax Administration
                                        March 31, 1999
                                               A-III-3
                             Semiannual Report to the Congress


                                                                                           Appendix III
                                                                              Statistical Report Tables

Audit Reports With Unimplemented Corrective Actions

  Reference
  Number          Issued       Report Title and Recommendation Summary

   072703       April 1997     Assessment of the Telephone Routing Interactive System (TRIS)

                               F-2, R-1, P-1. The TRIS Project Office and Customer Service need to
                               aggressively pursue a methodology for surveying taxpayers who do not
                               complete the TRIS applications.


   072303       April 1997     A Review of Cyberfile

                               F-1, R-2, P-1. Management is to ensure that IRS guidelines are
                               strengthened to specify project management procedures regarding tracking
                               funds paid to vendors for services and vendor purchases/leases of IRS-
                               funded equipment.

   073604       June 1997      Review of the Employee Tax Compliance Program

                               F-1, R-1, P-1. On at least a one-year test basis, IRS management should
                               direct the Automated Underreporter sites to select and screen all cases of
                               potential underreporting of income by its employees.


   073804       July 1997      Review of the Inventory Delivery System (IDS) Development

                               F-2, R-3, P-1. Review and update the sampling plan to ensure it includes
                               standards for each critical decision by which actual results can be measured
                               and a subsequent determination made on the effectiveness of decisions at
                               each sampling point.
                               F-2, R-4, P-1. Review and update the sampling plan to ensure it includes
                               criteria for the evaluation of each sampled account within a sub-group to
                               ensure consistency.
                               F-2, R-6, P-1. The results of the Self-Monitoring Program should be
                               included as one of the factors for determining whether and when IDS
                               features should be scheduled for national implementation.


   075404     September 1997   Review of the Office of Disclosure


                               F-3, R-2, P-2. The Office of Disclosure should ensure that all requests for
                               tax checks, both internally and externally, are properly tracked and
                               controlled.
                               F-3, R-3, P-2. The Office of Disclosure should take appropriate measures
                               to ensure sensitive data maintained on the inventory control system is
                               properly protected.




                  Treasury Inspector General for Tax Administration
                                          March 31, 1999
                                                 A-III-4
                              Semiannual Report to the Congress


                                                                                            Appendix III
                                                                               Statistical Report Tables

Audit Reports With Unimplemented Corrective Actions

  Reference
  Number          Issued        Report Title and Recommendation Summary

   075008     September 1997    Review of the Controls Over the Service's ADP Resources

                                F-2, R-1, P-1. National Office management needs to perform periodic
                                summary level comparisons, by type of asset, between the Integrated
                                Network and Operations Management System (INOMS) Property
                                Management System and the administrative general ledger.
                                F-3, R-1, P-1. Recommend the Service migrate towards having all
                                telecommunication assets on the INOMS database.


   080303     November 1997     Implementation of the Taxpayer Bill of Rights 2 (TBOR2)

                                F-1, R-1, P-1. Alternative methods of obtaining feedback from taxpayers
                                about how they were treated should be considered, rather than relying
                                solely on employees and managers for input.
                                F-1, R-2, P-1, P-2. Form 10004 should be redesigned to capture more
                                specific information that can be used for analysis to identify trends for
                                corrective action.

   081004     December 1997     Taxpayer Walk-in Program for the 1997 Filing Season

                                F-2, R-1, P-2. Develop a customer-based strategy and a related program
                                with applicable goals/measures to evaluate performance of the Walk-In
                                Program.


   082204      January 1998     Review of the Initial System Development Activities on the Integrated
                                Submission and Remittance Processing System

                                F-3, R-1, P-1. Ensure that the pilot’s evaluation plan contains sufficient
                                measures and data capture to develop quantitative support for projected
                                productivity increases if labor savings are claimed as a cost benefit.
                                F-3, R-5, P-1. Assess the risks associate with not having the systems
                                developer under contract during the year 2000.




                  Treasury Inspector General for Tax Administration
                                           March 31, 1999
                                                  A-III-5
                           Semiannual Report to the Congress


                                                                                         Appendix III
                                                                            Statistical Report Tables

Audit Reports With Unimplemented Corrective Actions

  Reference
  Number       Issued        Report Title and Recommendation Summary

   083008     April 1998     Review of the Service’s Electronic Federal Tax Payment System (EFTPS)
                             Implementation and Enhancements

                             F-4, R-2, P-1. IRS management should provide a process for electronic
                             submission of authorization data to eliminate manual transcription.
                             F-4, R-5, P-1. For the long-term, management should use the authority given
                             by TBOR2 for alternative forms of authorizations to reengineer the enrollment
                             and authorization processes, substantially reduce, and perhaps eliminate paper
                             enrollments and authorizations.
                             F-5, R-1, P-2. Provide options for EFTPS information for business and
                             individual taxpayers on Automated Call Director menus at all IRS toll-free sites.


   083322     May 1998       Math Error Processing for Revenue Protection Issues

                             F-1, R-1, P-2. Implement the remaining provisions of new laws designed
                             to combat filing fraud.
                             F-2, R-2, P-1. Change math error notices and Integrated Data Retrieval
                             System correspondence dealing with invalid TINs.
                             F-3, R-1, P-2. Send notices to taxpayers who used invalid TINs on their
                             previous returns for themselves and their spouses.
                             F-5, R-1, P-1. Develop programming to automate the research or prior
                             year return data when dependent and Earned Income Credit TINs are
                             invalid or missing.
                             F-6, R-1, P-3. Develop a job aid or guide for Code & Edit function.
                             F-6, R-2, P-1. Develop an error code for returns without dependents but
                             claiming Child and Dependent Care Credit.
                             F-6, R-3, P-1. Develop an error code for missing provider TINs.
                             F-9, R-1, P-2. Provide more training for Error Correction function.
                             F-9, R-2, P-1. Develop an error code to identify returns claiming Head-of-
                             Household filing status when no valid dependent TIN is present.
                             F-10, R-1, P-1. Include an informal checklist in Revenue Protection
                             Strategy math error notices.




                Treasury Inspector General for Tax Administration
                                        March 31, 1999
                                              A-III-6
                          Semiannual Report to the Congress


                                                                                        Appendix III
                                                                           Statistical Report Tables

Audit Reports With Unimplemented Corrective Actions

  Reference
  Number       Issued       Report Title and Recommendation Summary

   083605     June 1998     Review of the Service’s Year 2000 Conversion and Testing for Phase III

                            F-1, R-1, P-1, P-7, P-9. Ensure that all Phase III components are reviewed
                            to identify and schedule the required work to make them Y2K compliant.
                            F-3, R-1, P-1. Develop a quality assurance process throughout the
                            duration of the Y2K effort.
                            F-4, R-1, P-3. Ensure the accuracy of the Application Program Registry
                            (APR) inventories including recertification of the APR.
                            F-4, R-2, P-1. All component inventories should be on the APR and
                            INOMS.
                            F-6, R-1, P-1. The Century Date Change Project Office should ensure the
                            accuracy of INOMS.
                            F-6, R-2, P-1. Ensure that programmers document and follow prescribed
                            unit test procedures.
                            F-6, R-3, P-1. Reemphasize the importance of the IRS’ organizational
                            goal of meeting a Level II of the Capability Maturity Model.


   084407     July 1998     Use of Seizure Authority in the Collection Field Function

                            F-1, R-1, P-2. Make permanent the interim procedure requiring division
                            level approval of all seizures, and director level approval of all residence,
                            perishable goods, and household goods seized.
                            F-1, R-2, P-3, P-4, P-6. Communicate new and enhanced seizure
                            procedures to revenue officers, group managers and Special Procedures
                            Function at future training sessions.
                            F-2, R-1, P-1. Establish a dollar threshold on the value of assets and/or the
                            amount of liability.
                            F-3, R-1, P-2, P-3. Develop a document for taxpayers that explains what
                            constitutes reasonable attempts to contact the taxpayer prior to taking
                            seizure action and provide procedures for those situations when personal
                            contact cannot be made with the taxpayer.
                            F-4, R-1, P-2, P-3, P-4. Clarify the Internal Revenue Manual to specify
                            that seizure should be pursued only after reasonable alternatives have been
                            considered and investigated.
                            F-6, R-2, P-2. Communicate to all Collection managers and Revenue
                            Officers the need to adhere to both the letter and intent of legal and
                            procedural requirements on the notice of intent to levy.
                            F-7, R-1, P-2. Develop a checklist that contains seizure and sale
                            procedures to meet the legislative mandates of the IRS Restructuring and
                            Reform Act of 1998.




                Treasury Inspector General for Tax Administration
                                       March 31, 1999
                                              A-III-7
                            Semiannual Report to the Congress


                                                                                           Appendix III
                                                                              Statistical Report Tables

Audit Reports With Unimplemented Corrective Actions

  Reference
  Number          Issued       Report Title and Recommendation Summary

   084303       July 1998      Examination Division’s Use of Performance Measures and Statistics
                               F-1, R-1, P-2. Examination needs to place more emphasis on quality case
                               work and less emphasis on production goals.
                               F-2, R-1, P-4. Address the appropriateness of actions taken by managers
                               and employees to achieve goals and measures.
   084803       July 1998      Review of the Integration Support Contract (ISC)
                               F-1, R-1, P-2. Ensure that in-depth analysis of contractor labor hours and
                               costs is performed prior to payment of the invoices.
                               F-3, R-1, P-1. Establish a database to capture all the equipment and
                               information provided to the vendor under the life of the contract.


   085812     September 1998   Readiness for Service Center Mainframe Consolidation
                               F-2, R-1, P-1. Develop a contingency plan to provide needed staffing for
                               critical positions at all affected sites.
                               F-4, R-1, P-1. Revise the Program Management Plan (PMP) to document
                               the change in accountability and oversight authority for consolidation.
                               Also ensure that controls and oversight normally provided by the
                               Government Program Management Office are incorporated into the PMP.
                               F-5, R-1, P-1. Ensure security and disaster recovery risks are mitigated
                               through a proactive approach.
                               F-7, R-1, P-1, P-2. The Program Management Office (PMO) should
                               baseline all automation readiness date and augmentation activities and
                               identify critical interim dates with matching percentage of completion
                               milestones and measure progress according to the revised 1998 migration
                               scheduled.
                               F-10, R-1, P-1. Ensure vendor site surveys are completed and issued
                               within the 15-day requirement per the Service Center Support System
                               contract.
                               F-11, R-1, P-4, P-5. The PMO should provide additional resources to
                               adequately define and validate the delivery order requirements and to
                               coordinate with Procurement until all requirements are definitized for price
                               negotiations.




                  Treasury Inspector General for Tax Administration
                                          March 31, 1999
                                                 A-III-8
                            Semiannual Report to the Congress


                                                                                   Appendix III
                                                                      Statistical Report Tables

Access to Information
The Inspector General Act requires Inspectors General to report on unreasonable refusals of
information available to the agency which relate to programs and operations for which the
Inspector General has responsibilities. There were no instances to report where information or
assistance requested by the TIGTA or the former Inspection Service were unreasonably refused.


Audit Reports Issued in Prior Reporting Period With No Management
Response
The Inspector General Act requires a summary of each audit report issued before the beginning of
the current reporting period for which no management response has been received by the end of
the current reporting period. There are no prior reports to be cited in this reporting period where
management’s response was not received.


Revised Management Decisions
The Inspector General Act requires Inspectors General to provide a description and explanation
of the reasons for any significant revised management decisions made during the reporting
period. There were no such decisions during this six-month reporting period.


Disputed Audit Recommendations
The Inspector General Act requires Inspectors General to provide information on significant
management decisions in response to audit recommendations, with which the Inspectors General
disagree. As of March 31, 1999, there were no significant recommendations that were disputed.


Review of Legislation and Regulations
The Inspector General Act requires Inspectors General to review existing and proposed
legislation and regulations. Between January 18 (effective date of TIGTA organization) and
March 31, 1999, TIGTA’s Counsel Office reviewed more than 45 items, including proposed
legislation, draft regulations, proposed testimony, and draft executive orders.




                   Treasury Inspector General for Tax Administration
                                        March 31, 1999
                                             A-III-9
                          Semiannual Report to the Congress


                                                                                         Appendix IV

                              TIGTA Audit Report Listing

October 1, 1998 Through March 31, 1999

  Reference
                 Issued       Report Title
  Number
   090102      October 1998   Follow-Up Review of Corrective Actions Resulting from Internal
                              Audit’s Year 2000 Phase III Code Review

   090403      October 1998   Review of Phase IV Year 2000 Conversion and Testing

   690100      October 1998   Review of Business Resumption Plan Implementation at the
                              Philadelphia Service Center
   690200      October 1998   Review of the Collection Field Function Pennsylvania District

   090205     November 1998   Management Oversight Should Be Strengthened to Improve
                              Administration of the Treasury Information Processing Support Service
                              (TIPSS) Contract
                              Questioned Costs:                      $ 490,000
                              Funds Put To Better Use:               $ 3,517,000
                              Protection of Resources:               $ 706,000
   090302     November 1998   Review of Contractor Activities on the Year 2000 Project

   090503     November 1998   Review of the Service’s Year 2000 Non-Information Technology Project

   090602     November 1998   Employer Identification Numbers and Related Filing Requirements
                              Funds Put To Better Use:               $18,000,000
   090700     November 1998   Review of the Service’s Process for Reconciling General Ledger
                              Accounts to Subsidiary Accounts External to RACS

   090804     November 1998   Review of Taxpayer Requests for Disclosure of Tax Information

   090903     November 1998   Review of the Integrated Submission and Remittance Processing (ISRP)
                              System Software Development and Pilot Activities
                              Taxpayer Burden                              53,000 taxpayer accounts
                              Protection of Revenue                   $54,000,000
                              Reliability of Management Reports:      $20,200,000
   091206     November 1998   Review of the Service’s Efforts to Prepare its Tier II Infrastructure for
                              the Year 2000

   091303     November 1998   Evaluation of the Service’s Efforts to Implement Year 2000 Compliance
                              for External Trading Partners
   091502     November 1998   Evaluation of the Service’s Efforts to Acquire a new FFRDC

   190200     November 1998   Review of the Property Assets Tracking System in the Cincinnati
                              Service Center, Covington Host Site



                Treasury Inspector General for Tax Administration
                                      March 31, 1999
                                             A-IV-1
                        Semiannual Report to the Congress


                                                                                      Appendix IV
                            TIGTA Audit Report Listing


Reference
               Issued       Report Title
Number
 091000     December 1998   Follow-Up Review of Parent and Dependent Duplicate Exemption
                            Claims
                            Increased Revenue:                 $ 3,200,000
 091402     December 1998   Duplicate Form 941 Return Filings
                            Funds Put To Better Use:            $    5,000
 091603     December 1998   Review of the Offers-In-Compromise Program

 091701     December 1998   Employment Tax Adjustment Program
                            Funds Put To Better Use:                $ 505,000
 091903     December 1998   Executive Compilation and Interpretation of the 1998 Filing Season
                            Taxpayer Burden:           9,000,000 taxpayers and 5,800,000 hours
 092000     December 1998   Review of 1999 Filing Season Readiness to Process Business Master File
                            Returns with Tax Law Changes

 091804      January 1999   IRS Employee Outside Employment Requests

 092204      January 1999   Review of the IRS’s Effectiveness in the Monitoring and Reporting of
                            Year 2000 Funds

 092402     February 1999   Review of the Internal Revenue Service’s Year 2000 Efforts to
                            Inventory Telecommunications and Commercial Off-the-Shelf Products

 092802      March 1999     Follow-up Review of Selected Publishing Services Activities in the
                            Internal Revenue Service’s National Office

 092705      March 1999     Review of the Internal Revenue Service’s Year 2000 Contingency
                            Planning Efforts

 093307      March 1999     Review of Special Projects in the New Jersey District Collection Division
                            Taxpayer Rights and Entitlements at Risk:  9,125 taxpayers at risk




              Treasury Inspector General for Tax Administration
                                    March 31, 1999
                                           A-IV-2
                              Semiannual Report to the Congress


                                                                                        Appendix V
                                      Section 1203 Standards

In general, the Commissioner of Internal Revenue shall terminate the employment of any
employee of the IRS if there is a final administrative or judicial determination that such employee
committed any act or omission described in the performance of the employee’s official duties.
Such termination shall be removal for cause on charges of misconduct.
Acts or Omissions are:
(1) willful failure to obtain the required approval signatures on documents authorizing the seizure
of a taxpayer’s home, personal belongings, or business assets;
(2) providing a false statement under oath with respect to a material matter involving a taxpayer
or taxpayer representative;
(3) with respect to a taxpayer, taxpayer representative, or other employee of the IRS, the violation
of –
        •   any right under the Constitution of the United States, or
        •   any civil right established under –
                 (i)       title VI or VII of the Civil Rights Act of 1964,
                 (ii)      title IX of the Education Amendments of 1972,
                 (iii)     the Age Discrimination in Employment Act of 1973,
                 (iv)      the Age Discrimination Act of 1975,
                 (v)       section 501 or 504 of the Rehabilitation Act of 1973, or
                 (vi)      title I of the Americans with Disabilities Act of 1990;
(4) falsifying or destroying documents to conceal mistakes made by any employee with respect to
a matter involving a taxpayer or taxpayer representative;
(5) assault or battery on a taxpayer, taxpayer representative, or other employee of the IRS, but
only if there is a criminal conviction, or a final judgment by a court in a civil case, with respect to
the assault or battery;
(6) violations of the Internal Revenue Code of 1986, Department of Treasury regulation, or
policies of the IRS (including the Internal Revenue Manual) for the purpose of retaliating against,
or harassing a taxpayer, taxpayer representative, or other employee of the IRS;
(7) willful misuse of the provisions of section 6103 of the Internal Revenue Code of 1986 for the
purpose of concealing information from a congressional inquiry;
(8) willful failure to file any return of tax required under the Internal Revenue Code of 1986 on or
before the date prescribed therefor (including any extensions), unless such failure is due to
reasonable cause and not to willful neglect;
(9) willful understatement of Federal tax liability, unless such understatement is due to reasonable
cause and not to willful neglect; and,


                       Treasury Inspector General for Tax Administration
                                           March 31, 1999
                                                 A-V-1
                            Semiannual Report to the Congress


                                                                                      Appendix V
                                    Section 1203 Standards

(10) threatening to audit a taxpayer for the purpose of extracting personal gain or benefit.


In general, the Commissioner of Internal Revenue may take a personnel action other than
terminate for an act or omission above. The exercise of this authority shall be at the sole
discretion of the Commissioner and may not be delegated to any other officer. The
Commissioner in his sole discretion may establish a procedure which will be used to determine
whether an individual should be referred to the Commissioner for a determination by the
Commissioner. Any determination of the Commissioner in these matters may not be appealed in
any administrative or judicial proceeding.




                   Treasury Inspector General for Tax Administration
                                         March 31, 1999
                                               A-V-2
                                                     Semiannual Report to the Congress
                                                                                                                                    Appendix VI

                                                 Mandated TIGTA Reporting Requirements

Shortly after the July 22, 1998, passage of the legislation that created the TIGTA, the former IRS Internal Audit staff began planning the audit
work on these mandatory audits. All mandatory audits are ongoing as of March 31, 1999.




    Reference to Mandated                        Explanation of the Provision                                Comments/TIGTA Audit Status
          Coverage


Restrictions on the Use of         An evaluation of the compliance of the IRS with restrictions      Audit fieldwork in process.
Enforcement Statistics             under Section 1204 of RRA98 on the use of enforcement
                                   statistics to evaluate IRS employees.
IRC § 7803(d)(1)(A)(i)
Restrictions on Directly           An evaluation of the compliance of the IRS with restrictions      Audit fieldwork in process.
Contacting Taxpayers               under Section 7521 of RRA98 on directly contacting
                                   taxpayers who have indicated that they prefer their
IRC § 7803(d)(1)(A)(ii)            representatives be contacted.
Filing of a Notice of Lien         An evaluation of the compliance of the IRS with required          Audit fieldwork in process.
                                   procedures under IRC § 6320 upon the filing of a notice of
                                   lien.
IRC § 7803(d)(1)(A)(iii)
Seizures and Levies                An evaluation of the compliance of the IRS with required          Audit fieldwork in process.
                                   procedures under subchapter D of chapter 64 for seizure of
                                   property for collection of taxes, including required procedures
                                   under IRC § 6330 regarding levies.
IRC § 7803(d)(1)(A)(iv)
Taxpayer Designations – Illegal    An evaluation of the compliance of the IRS with restrictions      Audit fieldwork in process.
Taxpayer Designation and           under RRA98 section 3707 on designation of taxpayers.
Nonfiler Designation

IRC § 7803(d)(1)(A)(v)


                                           Treasury Inspector General for Tax Administration
                                                                  March 31, 1999
                                                                        A-VI-1
                                                        Semiannual Report to the Congress
                                                                                                                                               Appendix VI


    Reference to Mandated                           Explanation of the Provision                               Comments/TIGTA Audit Status
          Coverage


Disclosure of Collection Activities   Review and certify whether or not the IRS is complying with      Audit fieldwork in process.
with Respect to Joint Returns         IRC 6103(e)(8) to disclose information to an individual filing
                                      a joint return on collection activity involving the other
IRC § 7803(d)(1)(B)                   individual filing the return.
IRC § 6103(e)(8)
Extensions of the Statute of          Include information regarding extensions of the statute of       The effective date for this provision is January 1,
Limitations for Assessment and        limitations for assessment and collection of tax under IRC §     2000. Therefore, the audit is scheduled to start in
Collection of Tax                     6501 and the provision of notice to taxpayers regarding          Fiscal Year 2000.
                                      requests for such extension.
IRC § 7803(d)(1)(C)
IRC § 6501
Adequacy and Security of the          An evaluation of the adequacy and security of the technology     Audit fieldwork in process.
Technology of the IRS                 of the IRS.

IRC § 7803(d)(1)(D)
Complaints and Allegations of         List any terminations or mitigation under section 1203 of the    Audit fieldwork in process.
Employee Misconduct and               Restructuring Act (Section 1102(a) of RRA98).
Terminations and Mitigation for
Certain Proven Violations
Committed by IRS Employees

IRC § 7803(d)(1)(E)
IRC § 7803(d)(2)(A)




                                              Treasury Inspector General for Tax Administration
                                                                     March 31, 1999
                                                                           A-VI-2
                                                    Semiannual Report to the Congress
                                                                                                                                  Appendix VI


    Reference to Mandated                       Explanation of the Provision                               Comments/TIGTA Audit Status
          Coverage


Denial of Requests for            Include information regarding improper denial of requests for    Audit fieldwork in process.
Information on the Basis of the   information from the IRS, based on a statistically valid
Freedom of Information Act        sample of the total number of determinations made by the IRS
(FOIA) or IRC Section 6103        to deny written requests to disclose information to taxpayers
                                  on the basis of IRC section 6103 or section 552(b)(7) of title
IRC § 7803(d)(1)(F)               5, US Code.
IRC § 7803(d)(3)(A)
Administrative or Civil Actions   Include information regarding any administrative or civil        Audit fieldwork in process.
with Respect to the Fair Debt     actions with respect to violations of the fair debt collection
Collection Act                    provision of IRC section 6304, including a summary of such
                                  actions, and any resulting judgments or awards granted.
IRC § 7803(d)(1)(G)(i)(ii)
IRC § 6304
Section 3466 of RRA98




                                          Treasury Inspector General for Tax Administration
                                                                  March 31, 1999
                                                                        A-VI-3
                                                              Semiannual Report to the Congress
                                                                                                                                                           Appendix VII




                                                                     Organizational Chart
                                                                               Inspector General
                                                                                    for Tax
                                                                                 Administration


                                                                          Deputy Inspector General
                                                                                   for Tax
                                                                              Administration


                                                                   Counsel to the                    Office of
                                                                 Inspector General                  Executive
                                                                                                    Secretariat
                                                                  Washington, DC

                                                                 National Director,
                                                                 Communications,
                                                                Education & Quality
                                                                  Philadelphia, PA


                    Assistant Inspector                                        Assistant Inspector                                       Assistant IG
                     General for Audit                                       General for Investigations                              Management Services

                     Washington, DC                                               Washington, DC                                        Washington, DC


      Associate IG,                   Associate IG,            Associate IG for Invest.      Associate IG for Invest.   National Director,           National Director,
  Information Systems           Small Bus. & Tax Exempt        (Investigative Support)         (Field Operations)       Information Tech.        Performance & Investment

    Washington, DC                  Washington, DC                Washington, DC                Washington, DC           Washington, DC              Washington, DC

     Associate IG,                   Associate IG,                                                                      National Director,
Headquarters Operations           Middle & Large Corp.                                             Deputy AIG           Human Resources
                                                                                                for Investigations
    Washington, DC                        Central NJ                                                                     Washington, DC
                                                                                                Washington, DC
    Associate IG,
  Wage & Inv. Income

      Atlanta, GA




                                                       Treasury Inspector General for Tax Administration
                                                                             March 31, 1999
                                                                                     A-VII-1
                      Semiannual Report to the Congress
                                                                         Appendix VIII


                                      ACRONYMS



AIGA     Assistant Inspector General for           IG       Inspector General
         Audit                                     INOMS    Integrated Network and
AIGI     Assistant Inspector General for                    Operations Management System
         Investigations                            IRC      Internal Revenue Code
ALERTS   Automated Labor and Employee              IRS      Internal Revenue Service
         Relations Tracking System                 ISC      Integration Support Contract
APR      Applications Program Registry             ISRP     Integrated Submission and
ATLAS    Audit Trail Lead Analysis System                   Remittance Processing System
BMF      Business Master File                      Non-IT   Non Information Technology
CAWR     Combined Annual Wage                      PCAS     Project Cost Accounting
         Reporting                                          Subsystem
CCDC     Centralized Case Development              PRIME    Prime Systems Integration
         Center                                             Contractor
CDC      Century Date Change                       RACS     Revenue Accounting Control
CFS      Customer Feedback System                           System
COTS     Commercial-Off-The-Shelf                  RRA98    Restructuring and Reform Act of
EARL     Electronic Audit Research Log                      1998
EIN      Employer Identification Number            RRPS     Residual Remittance Processing
EFTPS    Electronic Federal Tax Payment                     System
         System                                    SSN      Social Security Number
ETP      External Trading Partner                  TBOR2    Taxpayer Bill of Rights 2
FFRDC    Federally Funded Research and             TFR      Trust Fund Recovery
         Development Center                        TIGTA    Treasury Inspector General for
FIRP     Foreign Information Returns                        Tax Administration
         Program                                   TIN      Taxpayer Identification Number
FSL      Forensic Science Laboratory               TIPSS    Treasury Information Processing
FOIA     Freedom of Information Act                         Support Services
FTC      Federal Trade Commission                  TRIS     Telephone Routing Interactive
FTE      Full Time Equivalent                               System
FY       Fiscal Year                               UNAX     Unauthorized Accesses to
GPRA     Government Performance and                         Taxpayer Accounts
         Results Act                               Y2K      Year 2000
IDS      Inventory Delivery System
IDRS     Integrated Data Retrieval System




            Treasury Inspector General for Tax Administration
                                    March 31, 1999
                                            A-VIII-1
                                           Semiannual Report to the Congress
                                                                                                                        Appendix IX

        IG Act Section                                           Description                                     Report Page Number
  Sec 4(a)(2)             Review of Legislation and Regulations                                                         A-III-9
  Sec 5(a)(1)             Significant Problems, Abuses, & Deficiencies                                                   4, 11
  Sec 5(a)(2)             Rec. w/Respect to Significant Problems, Abuses & Deficiencies                                   11
  Sec 5(a)(3)             Rec Described in Previous Semiannual Rpts on Which Corrective Actions Have Not                A-III-1
                          been Completed
  Sec 5(a)(4)             Matters Referred to Prosecutive Authorities                                                  A-II-2
  Sec 5(a)(5) & 6(b)(2)   Summary of Instance Where Information Was Refused                                            A-III-9
  Sec 5(a)(6)             List of Audit Reports                                                                        A-IV-1
  Sec 5(a)(7)             Summary of Particularly Significant Reports                                                    11
  Sec 5(a)(8)             Statistical Table: Total Number of Audit Reports and Total Dollar Value of                    A-I-1
                          Questioned Costs
  Sec 5(a)(9)             Statistical Table: Total Number of Audit Reports & Total Dollar Value of Recom.              A-I-2
                          That Funds Be Put to Better Use
  Sec 5(a)(10)            Audit Recommendations More Than 6 Months Old for Which No Mgmt Decision Has                  A-III-9
                          Been Made
   Sec 5(a)(11)           Significant Mgmt Decisions That Were Revised During the Reporting Period                     A-III-9
   Sec 5(a)(12)           Significant Mgmt Decisions With Which the TIGTA Disagreed                                    A-III-9
           IRC 7803(d)                               Additional Duties of the TIGTA:
(1)(A)(i)                 Restrictions on use of tax enforcement results to evaluate or impose quotas or goals         A-VI-1
(1)(A)(ii)                Restrictions on directly contacting taxpayers who have indicated they prefer their           A-VI-1
                          representatives be contacted.
(1)(A)(iii)               Procedures for filing a notice of a lien under Code Sec 6320                                 A-VI-1
(1)(A)(iv)                Procedures for seizing property for purposes of collecting taxes, liens and levies.          A-VI-1
(1)(A)(v)                 Restrictions on designating taxpayers as illegal tax protesters.                             A-VI-1
(1)(B)                    The Secretary is complying with the 6103 requirements on jointly filed returns.              A-VI-2
(1)(C)                    Information regarding extensions of the statute of limitations under Code Sec 6501.          A-VI-2
(1)(D)                    An evaluation whether IRS technology is adequate and secure.                                 A-VI-2
(1)(E)                    Information regarding any termination/mitigation procedures enacted in RRA Sec               A-VI-2
                          1203.
(1)(F)                    Improper denial of request for info from the Service based on IRC 6103 or FOIA               A-VI-3
                          exemptions
(1)(G)                    Information regarding violations of the Fair Debt Collection provisions of IRC 630.          A-VI-3
(1)(G)(i)                 Summary of above actions initiated since the date of the last report.                        A-VI-3

                                   Treasury Inspector General for Tax Administration
                                                       March 31, 1999
                                                             A-IX-1
                                                Semiannual Report to the Congress
                                                                                                                         Appendix IX

(1)(G)(ii)                     Summary of above judgments or awards granted as a result of such actions.                A-VI-3
(2)(A)(i)                      The number of taxpayer complaints received during the reporting period.                  A-II-1
(2)(A)(ii)                     Number of employee misconduct and taxpayer abuse allegations received by IRS or          A-II-1
                               TIGTA.
(2)(A)(iii)                    Summary of the status of serious complaints and allegations.                            A-II-2, 3
(2)(A)(iv)                     Summary of the disposition of serious complaints and allegations, fines, restitutions    A-II-1
                               and administrative sanctions including Department of Labor actions and statements.
(3)(A)                         Audits of the Service's denial of information to taxpayers under IRC 6103 and FOIA       A-VI-3
                               exemptions.
(3)(B)                         Maintain a toll-free Hot Line telephone number for taxpayers to confidentially            23, 24
                               register complaints.
IRC 6103(h)(5)                 Unauthorized requests by the Oversight Board for return information and/or contacts         24
                               relating to specific taxpayers.

Memorandum dated October           Formally Requested Government Performance and Results Act (GPRA)
7, 1998, from key House of                            Input for Semiannual Reports
Representative members,
including the House Majority
Leader and the Chairman,
Committee on Government
and Oversight
                               Submission of the IG’s GPRA review plan.                                                      9
                               Findings and recommendations from GPRA reviews.                                         5, 9, A-I-3




                                        Treasury Inspector General for Tax Administration
                                                             March 31, 1999
                                                                  A-IX-2
   Treasury Inspector General
     for Tax Administration
                    call our

               Hotline
            1-800-366-4484
                   To Report

 Fraud, Waste, Abuse!
in the Internal Revenue Service
     Information is confidential
  and caller may remain anonymous
                 or write to: TIGTA
         P.O. Box 589, Ben Franklin Station
           Washington, D.C. 20044-0589

       For Tax Problem Assistance
    Call the IRS Taxpayer Advocate at:
              1-877-777-4778
DEPARTMENT OF THE TREASURY
OFFICE OF THE INSPECTOR GENERAL FOR TAX ADMINISTRATION
1111 CONSTITUTION AVENUE, NW, SUITE 3031
WASHINGTON, D.C. 20224




Publication Number 3372 (5-1999)
Catalog Number 27393K
